<html>
<title> - EXAMINING PROSPECTS FOR DEMOCRATIC REFORM AND ECONOMIC RECOVERY IN ZIMBABWE</title>
<body><pre>[Senate Hearing 113-180]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-180
 
  EXAMINING PROSPECTS FOR DEMOCRATIC REFORM AND ECONOMIC RECOVERY IN 
                                ZIMBABWE 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 18, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations
      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

86-777 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

BENJAMIN L. CARDIN, Maryland         JEFF FLAKE, Arizona
JEANNE SHAHEEN, New Hampshire        JOHN McCAIN, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Flake, Hon. Jeff, U.S. Senator from Arizona, opening statement...     3
Gast, Hon. Earl, Assistant Administrator for Africa, Bureau for 
  Africa, United States Agency for International Development, 
  Washington, DC.................................................     6
    Prepared statement...........................................     7
Mahvinga, Dewa, senior researcher, Human Rights Watch, 
  Washington, DC.................................................    17
    Prepared statement...........................................    19
Moss, Todd, Ph.D., vice president for programs and senior fellow, 
  Center for Global Development, Washington, DC..................    31
    Prepared statement...........................................    33
    Articles submitted as attachments to prepared statement:
        Appendix A--Article from the Robert F. Kennedy Center for 
          Justice and Human Rights...............................    44
        Appendix B--Article from the Washington Post, July 5, 
          2008...................................................    46
Schneider, Mark, senior vice president, International Crisis 
  Group, Washington, DC..........................................    24
    Prepared statement...........................................    26
Yamamoto, Hon. Donald, Acting Assistant Secretary of State for 
  African Affairs, Bureau of African Affairs, U.S. Department of 
  State, Washington, DC..........................................     3
    Prepared statement...........................................     4

                                 (iii)

  


  EXAMINING PROSPECTS FOR DEMOCRATIC REFORM AND ECONOMIC RECOVERY IN 
                                ZIMBABWE

                              ----------                              


                         TUESDAY, JUNE 18, 2013

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:07 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, and Flake.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Good morning. I would like to call this 
hearing of the African Affairs Subcommittee to order. Today we 
will focus our attention on Zimbabwe, a country with abundant 
natural resources, human resources, fertile land, and a capable 
and enterprising population. Zimbabwe should be driving growth 
and prosperity in southern Africa, but today instead, in the 33 
years since independence, Zimbabweans' prospects have become 
increasingly bleak, having reached a low point in 2008 when the 
economy nearly collapsed and having slowly made modest progress 
since.
    It is no coincidence the economic collapse came at the same 
time as a significant decrease in respect for democratic 
principles and the rule of law and harsh crackdowns on free 
expression, civil society, and the news media.
    Zimbabweans will go to the polls at some point later this 
year for the first elections under their newly ratified 
constitution, and the preparation for and conduct of these 
elections will be an important indicator of whether Zimbabwe 
can and will realize its great economic and democratic 
potential.
    I would like to welcome my partner on the subcommittee, 
Ranking Member Senator Jeff Flake of Arizona, who brings with 
him considerable personal insight on Zimbabwe from his time 
spent in that country, and I look forward to continuing to work 
with him to advance our shared interests in good governance, 
economic growth, and security throughout sub-Saharan Africa.
    I would like to welcome our distinguished witnesses today: 
Don Yamamoto, Acting Assistant Secretary of State for Africa; 
Earl Gast, the Assistant Administrator for Africa at USAID, on 
our first panel, as well as our second panel to follow them: 
Dewa Mahvinga, senior researcher at Human Rights Watch; Mark 
Schneider, senior VP at International Crisis Group; and Todd 
Moss, the vice president for programs and senior fellow at the 
Center for Global Development. I look forward to hearing your 
insights and thank you for being here.
    Relations between the United States and Zimbabwe are guided 
by our shared aspiration for democratic and humanitarian 
values. The United States, though, has in recent years had to 
impose targeted travel and financial sanctions against 
individuals and businesses in Zimbabwe who have been engaged in 
persistently undermining democratic institutions. But we have 
in other ways remained a steadfast partner to the people of 
Zimbabwe. We have provided, over the dozen years since 2001, 
nearly $1.5 billion in support, much of which has helped 
address ongoing health and humanitarian needs of millions of 
regular Zimbabweans. The fiscal year 2014 request, if I am not 
mistaken, is for $135 million.
    Although providing this aid has been in the broadest sense 
the right thing to do, better governance and respect for rule 
of law in Zimbabwe would open the door to a stronger and 
different kind of partnership with the United States, one that 
leverages our resources and expertise more strategically to 
expand trade and investment and cooperatively approach vital 
regional challenges. Zimbabweans need not be destined for 
prolonged dependence on foreign aid.
    The upcoming elections offer Zimbabweans a critical chance 
to show their commitment to their new constitution, which 
limits Executive power and protects civil rights, and to build 
on the stabilization of the economy ushered in under the 
coalition government.
    SADC members have a critical and challenging role to play 
in supporting the elections and in holding Zimbabwe accountable 
to the standards it set in its new constitution. I am concerned 
from recent reports that the Zimbabwean Government is not 
working in good faith with SADC and other international 
partners to ensure these elections will be free and fair, 
especially considering the lengths to which President Mugabe 
and his ZANU-PF loyalists went to preserve power in the 2008 
elections. I am alarmed by the uptick in targeted harassment 
and intimidation of civil society leaders and human rights 
defenders who are seeking to ensure a free, fair, and open 
election. Activists such as human rights lawyer Beatrice Mtetwa 
have been harassed and arrested and leaders of security forces 
have in some recent instances been openly partisan and acting 
to suppress democratic expression.
    Today's hearing will look at the tools the United States 
could effectively deploy to support the upcoming elections and 
post-electoral reforms, to support increased respect for human 
rights and rule of law and mutually beneficial relations 
between our countries. I look forward to continuing my own 
engagement with SADC members and the administration following 
on this hearing and to make recommendations based on the advice 
we hear from our five witnesses today.
    With that, I turn it over to Senator Flake for his opening 
statement.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Well, thank you, Mr. Chairman. Thanks for 
arranging this hearing, and thank you to the witnesses. I look 
forward to the testimony.
    As you mentioned, I have a personal interest here. I spent 
a good deal of time in Zimbabwe in 1982-1983, back when there 
was great hope that things would turn out better than they 
have. As the chairman said, the purpose of this hearing is to 
see what we can do, what constructive role can the United 
States play to ensure a better future than it looks like we are 
in for right now. We will see if these election dates will hold 
and, if they do, if the outcome will be respected and will be 
credible.
    So look forward to the testimony and thank you again for 
coming.
    Senator Coons. Thank you, Senator Flake.
    I would now like to turn to our first panel, starting with 
Ambassador Yamamoto and then followed by Assistant 
Administrator Gast.
    Ambassador.

 STATEMENT OF HON. DONALD YAMAMOTO, ACTING ASSISTANT SECRETARY 
 OF STATE FOR AFRICAN AFFAIRS, BUREAU OF AFRICAN AFFAIRS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Senator Coons. Thank you very much, Senator Coons and 
Senator Flake. And thank you very much for having this hearing 
on Zimbabwe, and also for your deep concern and also great work 
on this important issue. For the sake of time, I would like to 
submit a longer version for the record.
    I would like to start off by noting that in the past year 
we have made engagements to move the Zimbabwe Government toward 
a much more open, free, fair, and transparent electoral 
process. In that regards, former U.N. Ambassador Andrew Young 
delivered a letter to President Mugabe from Secretary Kerry 
outlining the opportunities for normalized relations.
    Let me just say that Zimbabwe now is at the crossroads. 
Either it is going to go back to 1999 when it refused to pay 
for loans and concede to debt relief, or is it going to go 
forward in the progress that has been made in the last few 
years? We can see the progress. HIV-AIDS infection rates have 
fallen to below 15 percent. That is about half of what it was 
in 1999. The United States has helped them to meet the issues 
of cholera and tuberculosis and also further the issues on HIV-
AIDS issues.
    The other issue, too, is that the MDC-managed finances have 
helped to bring down inflation rates to almost zero, but also 
to have economic growth in the last 4 years which is about 5 
percent. We are also looking at independent newspapers 
increasing, commercial radios. Outflows of economic migrants 
into South Africa and to other areas has decreased. Trade is up 
with the United States from about $100 million to $160 million.
    But these all stand to be sacrificed if these upcoming 
elections are not free, fair, open, and transparent. We share 
your deep concerns about the trendlines that we are seeing. But 
the recent statements by SADC to have Zimbabwe go back to the 
constitutional process, the African Union sending observers, I 
think we are going to continue to work with all the 
stakeholders to ensure that this happens.
    But if it does not, if we do have a problem of regression 
on the part of Zimbabwe, then I think we can look at other 
issues and other areas in which we can make a difference for 
the people of Zimbabwe. Again, this is at a crossroads for 
Zimbabwe, the future progress for the people of Zimbabwe or to 
the past.
    Thank you very much.
    [The prepared statement of Ambassador Yamamoto follows:]

    Prepared Statement by Acting Assistant Secretary Donald Yamamoto

    Chairman Coons, Ranking Member Flake, and distinguished members of 
the committee, thank you for holding this hearing on Zimbabwe. Thank 
you also for affording me the privilege of testifying before you about 
this very important country at this critical juncture. It is my honor 
to have this opportunity to speak with you and our other assembled 
guests here today about the Department of State's work in Zimbabwe. We 
appreciate the deep interest of this committee in Zimbabwe over the 
years, and we are pleased to work closely with Members of Congress in 
support of our national interests in Zimbabwe and the region.
    After nearly 5 years under Zimbabwe's unity government, 2013 began 
as a year of promise and opportunity for Zimbabwe. In February, 
President Mugabe's ZANU-PF party and the MDC parties led by Morgan 
Tsvangirai and Welshman Ncube agreed on a draft constitution. In March, 
Zimbabwe held a peaceful referendum in which the Zimbabwean people 
overwhelmingly approved the draft constitution and, on May 22, 
President Mugabe signed Zimbabwe's new constitution into law.
    The June 15 communique issued by the Southern African Development 
Community (SADC) called for the parties in Zimbabwe's unity government 
to seek more time to complete important reforms and create a conducive 
environment for peaceful, credible elections. Too short a timeline 
would risk undermining the careful work of SADC to build a framework 
for peaceful, credible, transparent elections and to ensure necessary 
reforms are in place.
    These elections present an important opportunity for Zimbabwe to 
improve its relationship with the United States by holding elections 
that are regarded as peaceful, credible, and transparent by a broad 
range of international observers. Former U.S. Ambassador to the U.N. 
and civil rights leader, Andrew Young, recently delivered a letter to 
President Mugabe from Secretary Kerry outlining this opportunity. As 
elections approach, however, reports indicate that elements within 
Zimbabwean political parties and government security agencies have 
already begun efforts to intimidate voters and illicitly shape the 
outcome of the elections.
    This includes a troubling trend of arrests, detentions, and 
harassment of organizations and individuals working on human rights, 
electoral assistance, and related issues. The chilly reception offered 
to a partial U.N. Electoral Needs Assessment Mission (after all but one 
member of the delegation was denied entry into Zimbabwe), Zimbabwean 
hardliners' persistence in brushing off calls for a broad range of 
international election observers, and ZANU-PF's insistence on the 
removal of all sanctions rather than recognizing good faith efforts to 
ease some restrictions constitute obstacles to the conditions that we 
feel are necessary for warming relations between the United States and 
Zimbabwe. Influential officials within the Zimbabwean Government and 
the Zimbabwean defense and security sectors who benefit from the 
perpetuation of the status quo remain the most vocal critics of further 
engagement with the ``West.''
    The Government of Zimbabwe now faces a key decision point. Zimbabwe 
must decide whether it will support a credible electoral process, or 
continue to repress its people and isolate itself from the 
international community. The 2011 Southern African Development 
Community's (SADC) Roadmap and Zimbabwe's new constitution outline key 
reforms focused on voter education and registration, inspection of 
voters' rolls, media reform, security sector reform, freedom of 
assembly and association. We are concerned that holding elections 
without providing adequate time for voter registration, inspection of 
voters' rolls, other needed electoral and democratic reforms--
particularly reforms of the Public Order and Security Act, media 
reforms, and security sector reforms--will put the credibility of the 
outcome at risk.
    The United States shares the same fundamental interest as the 
people of Zimbabwe: a stable, peaceful, democratic Zimbabwe that 
reflects the will of her people and provides for their needs. U.S. 
support for human rights and democracy groups contributed to the 
success of the long and difficult development of Zimbabwe's new 
constitution. The U.S. also supported Zimbabwe's progress in attaining 
universal coverage for antiretroviral treatment, reducing the HIV/AIDS 
prevalence to just under 15 percent and extending the quality and reach 
of Zimbabwe's health care system. U.S. development assistance in 
smallholder farming has improved the lives of tens of thousands of 
everyday Zimbabweans, and U.S. support to the quasi-governmental 
statistics and economic research institutions, as well as 
nongovernmental organizations, has fostered a more disciplined approach 
to evidence-based fiscal and agriculture policy development in 
Zimbabwe.
    In May, following the peaceful and credible constitutional 
referendum, and as a means of demonstrating the sincerity of our intent 
to work toward normalizing relations should Zimbabwe make progress 
consolidating its democratic institutions, the administration eased 
restrictions on two Zimbabwean banks--the Agricultural Development Bank 
of Zimbabwe and the Infrastructure Development Bank of Zimbabwe. Both 
remain on the Office of Foreign Assets Control's (OFAC) list of 
Specially Designated Nationals (SDN List), despite the issuance of a 
General License by OFAC allowing Americans to conduct transactions with 
those banks. As part of our regular review of U.S. targeted sanctions, 
we also removed eight individuals and one entity designated under the 
Zimbabwe sanctions program from the SDN list. Some of the individuals 
are recently deceased, but others have left their positions in the 
Zimbabwean Government or are now using positions of influence to effect 
positive change; 113 individuals and 70 entities remain sanctioned 
under the Zimbabwe program today.
    In an effort to leverage SADC's consistent position that elections 
in Zimbabwe should be conducted properly rather than expediently, we in 
Washington and our Ambassadors in the field have been working to 
highlight and reinforce key U.S. policies on Zimbabwe, including strong 
support for SADC as the guarantor of the Global Political Agreement 
(GPA) and creator of the roadmap charting the reforms to which the 
unity government has committed. The people of Zimbabwe deserve the full 
and complete enactment of the reforms called for in the GPA, the SADC 
Roadmap, and the new constitution prior to elections. An environment 
free of political intimidation and violence, and the inclusion of a 
broad range of international observers, are essential for credible 
elections. Led by SADC, a robust contingent of election observers would 
play a central role in verifying that the credibility of the upcoming 
election and Zimbabwe's ability to live up to international electoral 
standards. The absence of local and international observers would 
detract from the credibility of the electoral process.
    We are also profoundly troubled by the lack of transparency within 
the diamond sector and the possibilities for illicit diamond sales in 
Zimbabwe. We are concerned about ongoing reports that diamond mining 
entities in Zimbabwe are being exploited by people in senior government 
and military positions for personal gain, that revenues from those 
enterprises are being diverted for partisan activities that undermine 
democracy, and that proceeds from diamond sales are enriching a few 
individuals and not the Treasury and people of Zimbabwe. The Zimbabwean 
people deserve to benefit from Zimbabwe's diamond fields and the many 
millions of carats (and dollars) that they likely hold.
    Giving all Zimbabweans the opportunity to choose their government 
this year, in peaceful, credible, and transparent elections, will help 
ensure a democratic, prosperous future for Zimbabwe. The United States 
Government has made it clear that we deeply respect the sovereign will 
of the Zimbabwean people, and that we will work with any government 
chosen in such elections.
    We are prepared to consider steps to further roll back sanctions 
and expand trade and investment between our countries. However, as a 
necessary first step, Zimbabwe must first hold elections that are 
peaceful, credible, transparent, and truly reflective of the will of 
the Zimbabwean people, and which are verified as such by a broad range 
of international observers. Thank you for providing me the opportunity 
to speak with your committee today. I welcome any questions you may 
have at this time.

    Senator Coons. Thank you, Ambassador.
    Assistant Administrator Gast.

   STATEMENT OF HON. EARL GAST, ASSISTANT ADMINISTRATOR FOR 
      AFRICA, BUREAU FOR AFRICA, UNITED STATES AGENCY FOR 
           INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Gast. Good morning, Chairman Coons and Ranking Member 
Flake. Thank you for the opportunity to speak with you today. I 
appreciate your continued interest in how United States 
policies and assistance programs can help build a peaceful and 
stable democracy in which prosperity is available to all in 
Zimbabwe. I would also like to thank Acting Assistant Secretary 
Yamamoto for his leadership on this issue.
    The negotiated resolution to Zimbabwe's violent electoral 
dispute in 2008 brought with it an opportunity for the 
consolidation of democratic institutions and improved systems 
of governance in Zimbabwe. A government of national unity 
agreed on a roadmap to achieve sustained political stability 
through stronger democratic processes. Broadly, the General 
Political Agreement, or the GPA, required the unity government 
to draft a new constitution, enhance basic reforms and 
freedoms, and reform Zimbabwe's security sector before the next 
elections, because the steps taken before and after election 
day are just as important as the election day itself.
    However, recently, on the 13th of June, President Mugabe 
issued a proclamation fixing July 31 as the day for harmonized 
Presidential, parliamentary, and local government elections. 
Though he claims his action was compulsory due to a 
constitutional court ruling, the ruling itself is highly 
questionable as it does not take into account the GPA's 
requirements, which are necessary for credible elections.
    The absence of transparent and accountable preelectoral 
processes will cast doubt regarding the legitimacy of the 
election results. At the same time, civil society leaders are 
facing increasing incidences of intimidation and harassment. 
Restrictions on media freedoms and public meetings, 
particularly in rural areas, are common. Furthermore, whether 
as a result of insufficient resources or political will, 
government attempts to provide even basic information on the 
voter registration process have been inadequate. This is as we 
are entering the second week of voter registration.
    As preparations progress, USAID continues to provide 
support where possible in an effort to address or at least 
mitigate these challenges. This support has three core pillars. 
One is empowering citizen participation in the elections. The 
second is supporting observation in the electoral process. Then 
the third is supporting credible elections administration.
    The first pillar emphasizes access to information as key to 
catalyzing participation of citizens, particularly women and 
youth, both groups of which have been underrepresented in 
elections previously. At USAID-supported youth clubs, young men 
and women have consistently expressed concern about the unmet 
need for basic information, particularly outside of urban 
areas. In response, a dynamic group of young partners has 
designed a groundbreaking voter response and a mobilization 
campaign that is broadcast on weekly radio programs and through 
social media outlets. So it is for the first time that we are 
seeing Zimbabwean youth very much engaged in debating issues 
that are related to the elections.
    Given the history of violence associated with Zimbabwe's 
past elections, peace-building and reconciliation are critical, 
and we are seeing faith-based organizations stepping up and 
playing a critical role. We are seeing large-scale peace 
rallies and in those rallies representatives from across the 
political spectrum are very much involved in this.
    The second pillar of USAID programs focuses on observation 
of the electoral process in accordance with the principles of 
SADC, which is the regional organization that has been 
monitoring the implementation of the GPA. USAID and other 
donors are funding domestic observation efforts, but avenues to 
support international observation are limited at this point.
    Despite calls from the international community and 
Zimbabwean civil society for long-term international or 
regional observers to document the preelection environment, the 
electoral law does not provide a mechanism for accrediting 
long-term observers. We feel having long-term observers in 
place would absolutely be essential to help ensure that we have 
credible elections.
    The third pillar of our work is supporting elections 
administration. We are engaged with civil society and others to 
provide evidence-based research and information on best 
practices in the region. The goal is to provide this 
information to key stakeholders, including parliamentarians and 
members of the Zimbabwe Electoral Commission, to ensure that 
legal and regulatory frameworks provide a foundation for 
transparent and credible elections.
    Our overall assistance, be it in health or be it in 
economic growth, support--our assistance supports these three 
pillars. We feel by providing basic services for Zimbabwe's 
citizens we not only meet immediate needs, but also demonstrate 
that better governance can lead to better lives. We have 
provided substantial support to combat the spread of HIV-AIDS, 
while other efforts are increasing food security, which is now 
a critical issue for Zimbabwe, and we are working to improve 
Zimbabwe's business environment to help attract private 
investment.
    We will continue to prioritize human rights and conflict 
mitigation and management activities as we move to the 
elections and beyond the elections.
    Thank you for your support.
    [The prepared statement of Mr. Gast follows:]

        Prepared Statement of Assistant Administrator Earl Gast

    Chairman Coons, Ranking Member Flake, and members of the 
subcommittee, I would like to thank you for the opportunity to speak 
with you today. I appreciate your continued interest in how U.S. 
policies and assistance programs can help Zimbabweans build a peaceful 
and stable democracy in which prosperity is available to all. I would 
also like to thank the Acting Assistant Secretary for Africa at the 
Department of State for his leadership on this issue.
    The negotiated resolution to Zimbabwe's violent electoral dispute 
in 2008 brought with it an opportunity for the consolidation of 
democratic institutions and improved systems of governance in Zimbabwe. 
A Government of National Unity (GNU) was formed, composed of Zimbabwe's 
then-ruling party, Zimbabwe African National Union-Patriotic Front 
(ZANU-PF), and the two factions of the former opposition party, 
Movement for Democratic Change (MDC)-MDC-T (Tsvangirai) and MDC-N 
(Ncube). Together, the parties of the unity government agreed on a 
roadmap to achieve sustained political stability through stronger 
democratic processes. Broadly, the General Political Agreement (GPA) 
required that the GNU would draft a new constitution, enhance basic 
freedoms (including media), and reform Zimbabwe's security sector 
before the next elections were held.
    USAID has strongly supported the unity government's efforts to 
implement the GPA, including the development of a new constitution, 
which was adopted in May 2013. The U.S. Government worked with the 
Zimbabwean Parliament and civil society to ensure that the new 
constitution would expand protections under the bill of rights and 
enhance gender equity provisions. USAID support for civil society 
activities culminated in an awareness-raising program highlighting the 
need for youth to peacefully participate in the March 16 referendum 
through which a record voter turnout overwhelmingly endorsed the new 
constitution.
    Yet challenges remain. On May 31, the Constitutional Court ruled 
that elections must be held by the end of July, and on June 13 
President Mugabe issued a Presidential decree declaring July 31 the 
date of elections. However, little progress has been made on the other 
key reforms identified in the GPA--most notably, media and security 
sector reforms--and it is unlikely that full implementation of the 
agreement could occur by July 31. The constitution includes strict 
requirements that must be fulfilled during the preelection period, 
including voter registration and inspection of the voter role, and 
candidate primaries. It also requires that the Electoral Law be updated 
by the Parliament to reflect changes in the constitution before an 
election date can be set--procedures that were not respected in 
President Mugabe's decree. The absence of clear, governing law may give 
rise to challenges in the post-election period and underscores the need 
to follow an agreed upon, detailed election roadmap.
    The requirements included in the GPA are important because progress 
made in reforming these sectors is necessary for a credible election. 
The absence of transparent and accountable preelectoral processes will 
cast doubt regarding the legitimacy of the election results. Civil 
society leaders are facing increasing incidences of intimidation and 
harassment. Restrictions on media freedoms and public meetings--
particularly in rural areas--are common. Furthermore, whether as a 
result of insufficient resources or political will, government attempts 
to provide basic information on the voter registration process have 
been inadequate. The steps taken before and after election day are just 
as, if not more, important than the election day itself.
    The new chair of the Zimbabwe Electoral Commission (ZEC) has 
demonstrated commitment to addressing many of these shortcomings and is 
reaching out to key stakeholders, including political party leaders and 
civil society, to improve the process. Previously, it cost $30,000 to 
obtain a comprehensive copy of the country's voter rolls--a sum out of 
reach of political parties and civil society. As a result of her direct 
efforts, the cost has dropped to $5,000. These efforts could produce 
legitimate reforms to begin to address the question of the Zimbabwean 
Government's ability and will to conduct free and fair registration and 
electoral processes.
    As preparations progress, USAID continues to provide support where 
possible in an effort to address these challenges. This support has 
three core pillars: empowering citizen participation in the elections, 
observing the election process, and supporting credible election 
administration.
    The first pillar emphasizes access to information as key to 
catalyzing the participation of citizens--particularly women and youth. 
At USAID-supported youth clubs, young men and women have consistently 
expressed concern about the unmet need for basic information, 
particularly outside of urban areas. In response, a dynamic group of 
young partners designed a groundbreaking voter mobilization campaign 
that is broadcast on weekly radio programs and through social media 
outlets. For the first time, Zimbabwean youth are discussing and 
debating issues related to their participation in elections. The 
campaign's popularity continues to expand, and the ZEC has been 
critical to its success. ZEC staff members regularly participate in the 
radio program and field live questions from listeners on the challenges 
they face in attempting to register. Similar programs use engaging 
events such as theater and music concerts as an opportunity to have 
well-known Zimbabweans disseminate information on elections and the 
importance of voting. Other voter outreach activities have been 
conducted through townhall style meetings, community dialogue, and 
community newsletters.
    Given the history of violence associated with Zimbabwean elections, 
peace-building and reconciliation are critical, and faith-based 
organizations play a central role. As a complement to voter 
mobilization activities, the United States supports faith-based 
organizations' efforts to conduct large-scale peace rallies that 
feature gospel music and other performances. Messages calling for 
peaceful elections are delivered by representatives from across the 
political spectrum as well as religious leaders, and thousands of 
Zimbabweans turn out for each event.
    The second pillar of USAID support focuses on observation of the 
election process in accordance with the principles of the Southern 
Africa Development Community (SADC)--the regional organization that has 
been monitoring implementation of the GPA. USAID and other donors are 
supporting domestic observation efforts. However, avenues to support 
international observation are more limited. Despite calls from the 
international community and Zimbabwean civil society for long-term 
international or regional observers to document the preelection 
environment, the current Electoral Law does not provide a mechanism for 
accrediting long-term observers--a critical gap. At this point in time, 
the USG is not funding regional or international observation 
delegations and it remains unclear whether the Government of Zimbabwe 
will accredit such observers in a timeframe allowing them to make an 
informed assessment of the overall electoral process. It is important 
to note even before elections take place that trust in the credibility 
of the election is not possible if long-term observers are not allowed.
    The third pillar of our support is in the critical area of election 
administration. Efforts are underway to secure approval of a memorandum 
of understanding between the International Foundation for Electoral 
Systems (IFES) and the Government of Zimbabwe, which would enable USAID 
to provide support for the ZEC's priority actions. In the interim, 
USAID supports election administration strengthening and civil society 
efforts to provide evidence-based research and information on election-
related best practices in the region. The goal is to provide this 
information to key stakeholders, including Parliamentarians and members 
of the ZEC, to ensure that Zimbabwe's legal and regulatory frameworks 
provide a foundation for transparent and credible electoral processes 
consistent with international norms and guidelines.
    Supporting each of these three pillars is USAID's overarching 
assistance to Zimbabwe. By providing basic services for Zimbabwe's 
citizens, we not only meet immediate needs of citizens but also 
demonstrate that better governance can lead to better lives. The United 
States provides substantial support to combat the spread of HIV through 
the President's Emergency Plan for AIDS Relief (PEPFAR). Other efforts 
are increasing food security--now a critical issue for Zimbabwe--and 
working to improve Zimbabwe's business enabling environment to attract 
private sector investment, particularly in the once-thriving 
agricultural sector. USAID is also working with the Ministries of 
Finance and Economic Planning to strengthen human and institutional 
capacity for economic policy analysis, and to rebuild Zimbabwe's 
statistical foundations for economic analysis. These activities 
encourage the use of evidence-based economic policy research as a 
counterpoint to politically driven debate around economic policies. 
They also seek to broadly disseminate policy research and analysis to 
encourage public- private dialogue to improve Zimbabwe's economic 
policies and strengthen the policymaking process. In the short term, 
given the targeted harassment and intimidation of human rights 
defenders and democracy advocates in the lead up to the elections, the 
United States will continue to prioritize human rights and conflict 
mitigation and management activities.
    We continue to believe that the Government of Zimbabwe can promote 
conditions for a credible electoral process in the preelection period, 
on election day, and in the tabulation of results, and USAID will 
continue to support its efforts. At the same time, we need to maintain 
our vigilance to ensure that barriers to participation--whether it is 
through intimidation, media restrictions, or denial of public assembly 
in the period running up to the election--do not undermine the 
credibility of those results.
    Thank you, Mr. Chairman, Ranking Member Flake, and members of the 
subcommittee for the continued commitment you have shown to the 
Zimbabwean people and your support for real reform within the 
government. I welcome any questions you might have.

    Senator Coons. Thank you to both our witnesses. We will now 
begin a round of questions, 7 minutes at a time, if we might.
    First, if I might, Ambassador Yamamoto, you mentioned a 
recent development regarding the AU and observers. Just fill us 
in with a little more detail about what role the African Union 
is playing, or could play, and how essential SADC has been, and 
could be, to ensuring a free, fair, and effective election.
    Ambassador Yamamoto. Thank you, Senator. Right now SADC has 
taken the lead in the recent meeting this past weekend in 
response to, I think, some of the comments made by Prime 
Minister Tsvangirai that the electoral process needs to be much 
more broad-based, the ability for the electoral commissions to 
register people properly and for it to hold elections in a very 
free and not rushed environment.
    So the July 31 timeframe, the SADC has gone back and said 
this has to be done according to the electoral process. The 
issue is that the African Union, which is a very positive 
development, is going to be sending or has sent election 
observers into Zimbabwe.
    What we are trying to do is--and we encourage not only the 
leadership that SADC has taken, South Africa, which we commend, 
but also the African Union under its new leadership, the 
Chairman Madam Zuma. But also we look to the United Nations 
also to take a leadership role. I think these groups and 
international groups together can make a difference in moving 
Zimbabwe toward making the right decisions and having free, 
fair, and open elections.
    Senator Coons. Assistant Administrator Gast, you mentioned 
these three pillars: empowering participants, election 
observers, and election administration. Talk, if you would, in 
a little more detail about what the Zimbabwean Electoral 
Commission, the ZEC, needs to be able to effectively administer 
an election and what these regional best practices are that you 
are trying to help present information about and support ZEC in 
implementing?
    Mr. Gast. Senator Coons, there has been a recent change in 
the leadership at the ZEC, the Zimbabwe Electoral Commission. 
Joyce Kazembe, who is coming from the Supreme Court, was 
recently placed in charge of the commission back in March, and 
I think by and large, talking with our Embassy, our Ambassador, 
our USAID mission, and our international observers. There has 
been a sincere outreach on her part and some of the other 
commissioners to engage with international partners in a 
dialogue.
    So we are seeing that they are reaching out to us to talk 
about issues related to the electoral process. We also 
understand that, in spite of earlier efforts of the Ministry of 
Justice to prevent the UNDP from coming in and conducting an 
assessment mission and in the future providing support, she has 
approached both the Ministry of Finance and the Ministry of 
Justice in trying to get other international groups, some of 
which we work with, to come in and help establish the 
milestones and help come up with budget figures on how much it 
would cost to run the elections.
    Another, I think, important twist is that she is actually 
effectively engaging with civil society groups, and she is 
beginning a process now, although it is not complete, but she 
is beginning a process by which she would be able to register 
and accredit local civil society organizations to observe the 
elections.
    Senator Coons. Does the Zimbabwean Government have the 
resources to conduct--let us assume just for the moment that 
the constitutional court issues a later deadline--does the 
Zimbabwean Government have the resources and the technical 
expertise to conduct a free, fair, and open election?
    Mr. Gast. We think not on both questions. But we are not 
certain that--well, one, no one has seen a specific budget on 
what it would cost to administer the elections. I think that is 
one of the reasons why the commissioner is reaching out for 
international support.
    Second, the Minister of Finance, his observation, his 
assessment, is roughly it would cost $78 million to run the 
elections. That may be a bit low, just looking at other 
elections where you are running multiple levels of elections, 
parliamentarians, Presidential election, local elections. So we 
think that is a bit low.
    The third thing related to that is that he has only made 
available $20 million of the so-called $78 million that is 
needed to conduct elections. Part of it is that the government 
runs on a cash-based basis, meaning what is in the coffers is 
what is allocated. So he has initially allocated $20 million to 
get the elections under way, but more money is needed, 
obviously, very soon if the elections are to take place at the 
end of July.
    Senator Coons. Is it possible for there to be credible 
elections on this short of a timeline with that modest of a 
budget, with the restrictions on observers, and with the 
limitations on engagement?
    Mr. Gast. International observers do not believe that it is 
likely that we will have credible elections if we were to 
proceed with the July 31date, looking at all the milestones 
necessary, to include a credible voter registration process as 
well as an opportunity to audit the voter registry.
    Senator Coons. Ambassador Yamamoto, you state in your 
prepared testimony--you imply that the administration may be 
prepared to reconsider some of the sanctions structure or at 
the very least to expand trade and investment with Zimbabwe if 
they, in fact, have peaceful, credible, transparent elections. 
On the other hand, I will just assert that it is possible that 
there are alternative actions we might take if these elections 
fall significantly short of the SADC criteria. Speak to that a 
little bit more, if you would.
    Ambassador Yamamoto. Sure. Nothing is off the table. We 
will look at every issue and every option that is before us. 
But right now we are so focused just on what SADC has done to 
try to move these elections to a much more free, fairer 
opportunities for all sides, but also to kind of continue the 
good things that are happening.
    Just one point is, you know, Tendai Biti, the Finance 
Minister, has signed this IMF staff monitoring program, which 
is going to help the finance become much more open and 
transparent on the finances part. But what we do not want to 
see is where we have progress in one area, but not progress in 
the main area, which is going to be the electoral process, 
because that ultimately is going to define where Zimbabwe goes 
to the future. That I think, Senator--and we agree with you--
nothing is off the table.
    Senator Coons. Are you concerned that even if there are 
relatively peaceful elections, there may not be a smooth 
transition to an appropriately elected future government?
    Ambassador Yamamoto. That is correct.
    Senator Coons. With that, I will hand it over to Senator 
Flake.
    Senator Flake. Thank you.
    Ambassador Yamamoto, you mentioned that we ought to seek 
for more U.N. intervention or involvement. What organ of the 
United Nations? Is the Security Council likely to move on this 
or is this General Assembly resolutions or what exactly are we 
looking for there? What would be useful?
    Ambassador Yamamoto. I think right now that is an issue to 
be answered by the organizations that are dealing with Zimbabwe 
itself. Right now SADC has taken the lead, not only through the 
roadmap for the elections, but also the global political 
agreement that became really the hallmark, the framework, of 
where we are headed toward in Zimbabwe.
    The input by the African Union recently with the electoral 
observers, that is important. But I think, in consultations 
between SADC, the African Union, and the United Nations to look 
at where each institution, organization, can play a role in 
moving Zimbabwe forward, I think it has to be a discussion with 
them.
    Senator Flake. Mr. Gast, what has been the impact of the 
sanctions that we have imposed, the travel and other targeted 
sanctions on leaders? And what leverage do we have going 
forward in terms of their reaction? Do you see any movement 
based on these sanctions or not?
    Mr. Gast. I will let my colleague talk specifically about 
the sanctions, but certainly because there are sanctions we are 
very careful about whom we work with in the country. So some of 
our economic programs, which really are a way of supporting 
small farmholders who did not have access to credit, and 
looking at linking them to buyers, we go through a very 
specific vetting process to make sure that anyone who is on any 
of the sanctions lists does not benefit from our assistance.
    Senator Flake. Before we go back to answer that question, 
the new constitution, how does it address the land reform 
issue?
    Mr. Gast. It does not address the land reform issue, and 
that is one of the problems, is that there is no secure land 
tenure in the country. As we were discussing in the back room, 
we see that there are two major--certainly one that is on the 
books now, the absence of land tenure, which means that no one 
can use the land as collateral for getting lending, and so 
there is no financing or no lending in the ag sector.
    The second issue is indigenization, and they are looking at 
putting forward a more aggressive bill to support 
indigenization, which would require all international companies 
to divest themselves of ownership so that there is a minimum of 
51 percent Zimbabwean ownership. So we feel that those are 
going to be two major--those are major impediments to 
investment going into Zimbabwe.
    Senator Flake. With regard to sanctions, what has been the 
impact and what leverage do we have moving forward?
    Ambassador Yamamoto. I think on the sanctions, of course, 
it is on 113 individuals and entities. They remain really the 
framework which we are using to work with the Zimbabwe 
Government to do the right things. I think the sanctions as 
they stand now is on assets and of course travel.
    We are constantly reviewing and looking at how we can beef 
up, strengthen those sanctions. But I think for the time being 
the sanctions we have in place seem to be our policy for the 
time being, and it is always under constant review.
    One thing on the land reform is, we are also looking at 
that very, very carefully, because on the land reform, if we 
cannot have the Zimbabwean Government move forward on a 
rationalization of land, but more important is the transference 
of land with titles, that I think is going to be bad for not 
only the economy, but I think on the overall stability of the 
country.
    Senator Flake. With regard to the electoral process, Mr. 
Gast, you mentioned that the preelection requirements have 
not--there is insufficient time to get those in place. What 
amount of time is needed in your estimation to have these in 
place?
    Mr. Gast. There are a number of laws and the constitution 
have very strict timelines. So there is some conflict among 
them. Parliament goes out of session at the end of June and 
there is a 
4-month gap by which elections have to be held. So if you 
extend that out, elections have to be held no later than some 
time in October.
    The other requirements are the fact that there has to be a 
30-day voter registration process and then another 30 days to 
review and audit the rolls, as well as time for the political 
parties to nominate candidates. Again, we are dealing with 
multiple levels of elections, so parliamentary as well as local 
elections. And then for those candidates to be announced, as 
well as the campaigning period.
    So, using that as a timeline, others in the MDC and other 
observers have said that potentially one could meet--they could 
meet the milestones if elections were pushed back about 30 days 
toward the end of August.
    Senator Flake. With regard to the economy, you mentioned 5 
percent growth or some estimates as high as 7. Is this 
artificial? Can this be maintained, assuming we have some 
version of the status quo after the election? Do you believe 
that the economic growth that has occurred over the past year 
or so will continue, Ambassador?
    Ambassador Yamamoto. I think those will be held in jeopardy 
if the elections are not free, fair, open, because it would 
send a message to investors that the government has reneged on 
its commitment toward those electoral processes. The end result 
is if you do not have confidence in that government the 
investments will start to dry up. So that is why we said that 
the government and the people of Zimbabwe are really at a 
crossroads with these elections.
    Senator Flake. In recent years the government has 
collateralized a lot of the industry and minerals there. To 
what extent have they gone? I think the airport near Victoria 
Falls, commercial activity has been mortgaged, if you will. 
Some of the mineral rights. What else has the government done 
in order to meet short-term cash flow needs?
    Ambassador Yamamoto. We would have to get back to you on 
the specificity. Just on some of its intake and revenues, we 
are seeing that they have not capitalized on a lot of the 
resources that they have exported and that they have not taken 
full advantage. Of course, that becomes mainly due because of 
lack of transparency.
    One of the issues that we support with the IMF on the staff 
monitoring program is that it gives greater transparency to 
financial resources and intake.
    But we will get back to you on more information.

[Editor's note.--A response to the above question was not 
supplied by the time this hearing went to press.]

    Senator Flake. Thank you, Mr. Chairman.
    Senator Coons. Thank you, Senator Flake.
    Ambassador, your written testimony raises concern about the 
diversion of diamond revenues to the security sector that is 
directly or indirectly being used in suppressing civil 
liberties. What is the United States doing to address those 
concerns and have concerns like this been addressed effectively 
through the Kimberley Process or is the Kimberley Process not 
either relevant or effective, moving forward, to ensuring that 
natural resources revenues are taken care of responsibly and 
appropriately in Zimbabwe?
    Ambassador Yamamoto. As you know, Senator--thank you, 
Senator. For 1 year we were the chair for the Kimberley Process 
and we made a great effort to look at rationalizing how the 
Marange mines are operated, how free and fair and open it is in 
its operations, and that money from the diamonds are not 
diverted.
    As you know, from the resources and the amount of diamonds 
that Zimbabwe has they can earn probably as much as $600 
million a year or more. Right now the estimate is about $47 
million. So the question comes in is what happened? Where is 
that? Where is the money? Are they not efficient in how they 
sell those diamonds, or is it being diverted toward other means 
that are illicit or not in keeping with support of the general 
public? Those are questions that we constantly ask.
    We do not have the complete answers, but we only have 
concerns that those moneys are not being used for the support 
of the people of Zimbabwe.
    Senator Coons. So do you think the Kimberley Process 
continues to be relevant to this conversation?
    Ambassador Yamamoto. Yes.
    Senator Coons. And what more can we or should we do moving 
forward?
    Ambassador Yamamoto. I think the Kimberley Process, what we 
try to do is make it a much more rational and decisive 
institution and organization. I think its establishment has 
been effective in trying to control the flow of diamonds and it 
remains relevant in how we manage the diamond markets. I think 
it also holds Zimbabwe and other countries in many ways 
accountable to what they need to be doing on the diamonds.
    But let me just also add on the sanctions, on the 113 
individuals and 7 entities. What it does do, too, is that it 
limits the ability of the mining sector to distribute diamonds 
or conflict minerals to the United States and to other 
countries.
    Senator Coons. The Vice Premier of China visited Zimbabwe 
last month and I have raised in previous hearings concerns 
about ways in which China's expanding economic role in the 
continent may provide a counterweight to our values agenda 
around democracy, human rights, open media, and so forth. Do 
expanding Chinese interests in Zimbabwe lessen incentives for 
the government to improve respect for human rights, or is China 
simply positioning itself to play a stronger role in the 
economy in a way that does not influence the elections or the 
outcome? Any input for me, Assistant Administrator Gast or 
Ambassador Yamamoto, on the role China is playing?
    Mr. Gast. China, obviously, has a noninterference approach, 
which means that they do not engage the government on reforms. 
As we have always said, U.S. business is great for the 
continent in so many ways because it also brings good 
governance principles. We do not see that when we see Chinese 
investment.
    The deals generally are shrouded in secrecy. There is no 
transparency and it actually helps to further, if you will, 
corruption or corrupt practices.
    Ambassador Yamamoto. If I can add one point to that.
    Senator Coons. Please, Ambassador.
    Ambassador Yamamoto. We are headed into our seventh 
bilateral discussions with the Chinese that we started several 
years ago. These are some of the issues that we have raised 
with the Chinese directly, that if they are going to use the 
resources--and right now they are at $150 billion and that is 
mainly raw materials and resources from Africa--if they are 
going to be focused on that, then they have to look at what is 
good for, or will help benefit, the people in Africa and make 
sure that all these resources are accountable and accounted 
for.
    So those are some of the things that we are looking at. 
Yes, there are a lot of areas that we have deep concerns, but I 
think through these negotiations and meetings annually that we 
are addressing these, and it is going to be very tough 
negotiations and talks.
    Senator Coons. Well, if Zimbabwe were to change and if we 
were to see a changed timeline, with free and fair and open 
elections, an orderly election, and a peaceful transition to a 
new government, what might we be able to do in response? What 
sort of expanded programs or activities might USAID take that 
would significantly increase economic opportunity and improve 
the lot of the average Zimbabwean?
    Mr. Gast. Obviously, we have been consulting with like-
minded donors and also some of the major financial 
institutions--African Development Bank and World Bank. 
Obviously, institution-building would be needed, putting in 
good systems of accountable governance, to include economic 
governance.
    But one area that could make a big difference in Zimbabwe 
is in the agricultural sector, doing more in supporting small 
landholders, getting people employed in the ag sector, and 
starting with that. The industries that have languished over 
the years will take years and years of investment before they 
come back in line, but to make an immediate impact we feel that 
on the economic side the focus should be on agriculture and 
linking small farmholders, landholders, to larger markets and 
also buyers in the region.
    Senator Coons. These are areas where USAID and other 
elements of the U.S. Government have successfully led 
significant initiatives and investment and have made real 
progress in other countries in the region?
    Mr. Gast. In other countries, and we are also doing very 
similar things with some of the small landholders in Zimbabwe. 
So we are working with approximately 90,000 landholders, 
families that own land, and helping provide them with technical 
assistance in good farming techniques, access to inputs, and 
also, more importantly, access to credit.
    Senator Coons. Last question, if I might, for both of you. 
What are the specific benchmarks or the conditions that would 
have to be met to justify increasing engagement with, or 
support for, the Zimbabwean Government going forward?
    Mr. Gast. Our Ambassador has publicly stated in Zimbabwe 
that credible, peaceful elections is absolutely a must before 
we can talk about further engagement and deepening engagement 
with the Government of Zimbabwe.
    Ambassador Yamamoto. And based on that framework, we can 
work on the other areas, such as media freedoms, the 
agriculture, the economy, and the finance.
    Then just to add to what my colleague has said, in striking 
terms Zimbabwe should be the breadbasket for southern Africa. 
It should be. It is importing food. We are providing 
humanitarian assistance for--in the nineties--7 million people. 
It is now down to 1.6 million. But that should not be the case. 
This is a rich, very rich country. It should be the leading 
light for southern Africa. As the regional leaders have said, 
this is as much a problem for these countries as it is for 
Zimbabwe and the people of Zimbabwe.
    Senator Coons. So to summarize, let me just make sure I 
hear you right. Credible, free, fair elections are the 
beginning, beyond which there are other critical benchmarks, 
including a transition to a new government and progress on 
human rights, media freedoms, and so forth.
    Thank you very much.
    Senator Flake.
    Senator Flake. Well, that was my question, Is what would 
constitute progress enough--sufficient for us to normalize 
relations, to remove the sanctions?
    Let me just say, I met with MDC officials a couple years 
ago. They were calling for relaxing some of these sanctions. 
Obviously, Andrew Young and others who have gone there have 
called for that as well. To what extent is the opposition, the 
MDC and others, publicly still calling for normalization or at 
least some kind of lessening or weakening of these sanctions? 
And is that their true feeling or is that a public posture that 
they feel differently otherwise? What is your assessment there?
    Ambassador Yamamoto. That is a very difficult question to 
answer in a public forum. The issue for the sanctions is, yes, 
regional leaders have approached us and said that if sanctions 
were lifted Zimbabwe could have a freer access toward 
developing their economy and reaching out to its people. Our 
position has been that the sanctions are there because the 
government has not reached out to its people, because it has 
not done the right things in various areas. So those sanctions 
remain.
    As we told the MDC people and the others, the MDC, that 
these sanctions are in their interests as well, and they 
understand that. And ZANU-PF also understands why those 
sanctions are in place and they are going to remain so until 
there is changes.
    Senator Flake. What motivated our recent decision to waive 
the sanctions with regard to the African Development Bank?
    Ambassador Yamamoto. You mean the Agriculture and the 
Infrastructure Development Banks? Those were our normal review 
of sanctions. So the eight individuals, eight individuals and 
entity that we looked at, we looked at whether or not they were 
making progress toward being much more open and transparent in 
their processes and their restrictions.
    Anyway, so in that regards we had determined through the 
sanctions review process that they were meeting some of those 
trendlines and so therefore we lifted just part of the 
sanctions.
    Senator Flake. Mr. Gast, do you think that State and the 
impact at AID--do we have the flexibility that we need, the 
administration, with regard to these sanctions to help try to 
prompt change or the kind of behavior that we want?
    Mr. Gast. At this point we do, and we have also built in 
flexibility into our existing program and our strategy to allow 
us to move into areas where there are openings, provided that 
there is good progress with regard to the elections and human 
rights.
    Senator Flake. All right. Thank you, Mr. Chairman.
    Senator Coons. I would like to thank our first panel. Thank 
you very much, Ambassador Yamamoto. Thank you, Assistant 
Administrator Gast, both for your leadership, for your 
insights, and for your important testimony today.
    I would now like to turn to our second panel, and we will 
wait for a moment for the transition from the first to the 
second panel. Thank you so much for your testimony.
    [Pause.]
    Senator Coons. I would now like to turn to our second 
panel, starting with Mr. Mahvinga, followed by Mr. Schneider 
and finally Mr. Moss. Gentlemen, thank you so much for being 
with us today. I have given a brief overview of your current 
positions and responsibilities in my introduction and I would 
now like to invite Mr. Mahvinga to offer your opening 
statement.

  STATEMENT OF DEWA MAHVINGA, SENIOR RESEARCHER, HUMAN RIGHTS 
                     WATCH, WASHINGTON, DC

    Mr. Mahvinga. Thank you, Chairman Coons, Ranking Member 
Flake, and other members of the committee, for providing Human 
Rights Watch with the opportunity to testify on this hearing on 
Zimbabwe. I would like to request that my statement be 
submitted for the record.
    Senator Coons. Without objection.
    Mr. Mahvinga. My name is Dewa Mahvinga. I am a senior 
researcher with the Africa Division of Human Rights Watch, 
where I lead our work on Zimbabwe. I frequently travel to 
Zimbabwe and last month I met the leaders of the main political 
parties, media, key civil society groups, church leaders, and 
business people to assess the human rights conditions ahead of 
the coming elections. I also maintain daily contact with local 
activists, who keep me informed of the situation in Zimbabwe.
    Mr. Chairman, my testimony will first lay out the human 
rights trends in Zimbabwe and then highlight key 
recommendations for the U.S. Government for action to promote a 
rights-respecting environment leading to credible, transparent, 
peaceful elections and political stability thereafter.
    Many people in Zimbabwe have expectations that the 
elections will usher in a democratically elected government 
with interest in addressing the country's long-standing and 
serious human rights issues. But as things stand, there is a 
slim chance that Zimbabwe will have free, fair, and credible 
elections, particularly given the shortcomings of security 
sector reforms and reforms in other sectors.
    On June 13, President Robert Mugabe used a Presidential 
decree to set July 31 as the election date for harmonized 
elections. It is critically important that these elections 
should be held under conditions where Zimbabweans can freely 
vote for leadership of their choice. As you may know, on June 
15 the leaders of the Southern African Development Community, 
SADC, urged President Mugabe to approach Zimbabwe's 
constitutional court to seek extension or delays to elections 
to allow for much-needed electoral reforms before elections. 
The Government of Zimbabwe has said it does not have funds for 
elections.
    Mr. Chairman, during my visit to Zimbabwe last month people 
told me of their great fear of the coming elections, that they 
might just be another cycle of violence because little has 
changed on the ground. They told me of their despair when they 
see people responsible for the 2008 violence working free 
because the so-called unity government has failed to hold them 
accountable. Instead of focusing on pulling themselves out of 
this poverty and rebuilding their lives, they are bracing 
themselves for further violence and chaos.
    I had the opportunity to interview the home affairs 
minister, Theresa Mekone of the MDC, who is responsible for the 
voters roll, about the ongoing process of updating the voters 
roll. She told me that when she checked her own name was 
missing from the roll. After complaining about it in Cabinet, 
she later checked again and found that her name had been 
removed from the roll. When then she checked for the second 
time, it had been placed there, but spelled incorrectly. The 
voter registration process and the voters roll updating process 
is marred with errors, to what extent deliberate unclear.
    A key benchmark for the U.S. Government here as it 
reconsiders its policy toward Zimbabwe should be the assessment 
of whether or not the country is prepared and has held 
peaceful, transparent, fair, and free elections, and also that 
the government-elect has been able to assume power. Simply 
basing the U.S. policy on the holding of a peaceful referendum 
on the constitution, which took place in March, is not enough.
    On the human rights landscape, Mr. Chairman, there have 
been some reforms. We now have a new constitution that has been 
agreed to last month. It is a significant reform, but alone it 
is not sufficient because of challenges relating to the 
security sector.
    A number of new national commissions have been established, 
including the Zimbabwe Electoral Commission, the Zimbabwe Media 
Commission, the Anti-Corruption Commission, and the Zimbabwe 
Human Rights Commission. The Zimbabwe Human Rights Commission 
is not functional because of lack of resources, so it has no 
capacity the influence positively the human rights environment 
as we go into elections.
    The Zimbabwe Media Commission has licensed new newspapers, 
but there is limited opening of the free air waves in terms of 
electronic media in terms of the radio and television.
    A key challenge for Zimbabwe as we go into elections which 
is really crucial to be addressed is the role that Zimbabwe 
state security forces would play, particularly the defense 
forces, the police, and the Central Intelligence Organization.
    I turn now to recommendations for the U.S. Government that 
we request: Close collaboration with the Southern African 
Development Community, SADC, for the United States in terms of 
pushing for free and fair elections. We urge the U.S. 
Government to ensure that before there is consideration for a 
shift in policy or a review of sanctions this should be based 
on whether or not the country has had peaceful elections and 
whether the government-elect has assumed power.
    We also urge the Obama administration to work closely with 
SADC to ensure strict political neutrality on the part of the 
security forces and to ensure that they refrain from partisan 
statements supporting one political party over the other.
    We also urge for urgent reforms to the highly partisan 
state-controlled print and electronic media.
    We also urge that there be immediate deployment of domestic 
and SADC-led international election observers in sufficient 
numbers to allow for effective monitoring of the situation and 
to promote credible, free, and fair elections in line with the 
SADC standards.
    We also urge that the Zimbabwe Government should 
immediately repeal all repressive legislation, including the 
Access to Information and Protection of Privacy Act, the Public 
Order and Security Act, the Criminal Procedures and Evidence 
Act, which are hindering freedom of expression for the people 
of Zimbabwe as they go into elections.
    We urge the U.S. Government to provide financial and 
technical support for a government that comes into power 
through credible, free, and fair elections in a manner that 
would strengthen democratic state institutions in the areas of 
promoting the rule of law, democracy, good governance, and 
human rights.
    Mr. Chairman, my sincere thanks again for this opportunity 
to address this committee. I am happy to respond to questions 
from you or from your colleagues. Thank you.
    [The prepared statement of Mr. Mahvinga follows:]

                  Prepared Statement of Dewa Mavhinga

                              introduction
    Thank you, Chairman Coons, Ranking Member Flake, and other members 
of the committee for providing Human Rights Watch the opportunity to 
testify at this hearing on Zimbabwe. I would like to request that my 
statement in its entirety be submitted for the record.
    My name is Dewa Mavhinga. I am a senior researcher with the Africa 
Division of Human Rights Watch where I lead our work on Zimbabwe. I 
frequently travel to Zimbabwe and last month met with leaders of the 
main political parties, private media, and key civil society groups to 
assess human rights conditions ahead of the coming elections. I 
maintain daily contact with local activists, civil society and church 
leaders, and business people from Zimbabwe who keep me up to date 
regarding the situation there.
    Mr. Chairman, my testimony will first lay out the human rights 
situation in Zimbabwe and then highlight key recommendations to the 
U.S. Government for action to promote a rights-respecting environment 
leading to credible, transparent, and peaceful elections and political 
stability thereafter. Many people in Zimbabwe have expectations that 
the elections will usher in a democratically elected government with 
interest in addressing the country's longstanding and serious human 
rights issues. But as things stand currently, the chances of having 
free, fair, and credible elections are slim, particularly given the 
shortcomings of security sector reforms and reforms in other sectors.
    On June 13, President Robert Mugabe used a Presidential decree to 
set July 31, 2013, as the date for national ``harmonized'' elections, 
that is, parliamentary, Presidential and local government elections. 
These are critically important elections that should be held under 
conditions in which Zimbabweans are able to freely vote for leadership 
of their choice. As you may know, on June 15, leaders of the Southern 
African Development Community (SADC) urged Mugabe to approach 
Zimbabwe's Constitutional Court to seek a 2-week delay to elections to 
allow for much-needed electoral reforms before elections. The 
Government of Zimbabwe has said it does not have funds for elections.
    Mr. Chairman, during my visit to Zimbabwe last month, people told 
me of their great fear that the coming elections might just be another 
cycle of political violence because little had changed on the ground to 
build their confidence that they can vote freely. They told me of their 
despair when they see the people responsible for the 2008 violence, 
whom the unity government failed to hold accountable, walking free. 
Instead of focusing on pulling themselves out of poverty and on 
rebuilding lives shattered by the 2008 political violence, they were 
bracing themselves for further violence and chaos.
    I had opportunity to interview Zimbabwe's home affairs minister, 
Theresa Makone of MDC, responsible for the voters roll, about the 
ongoing process of updating the voters roll. Despite having voted in 
2008, when she checked on the voters roll she found her own name was 
missing. After complaining about it in the Cabinet, she later checked 
again and found her name on the roll, but spelled incorrectly. The 
voter registration and voters roll updating process is marred with 
errors--to what extent deliberate is unclear.
    A key benchmark for the U.S. Government here, as it reconsiders its 
policy toward Zimbabwe should be the assessment of whether the country 
has not only managed to have peaceful, transparent, free and fair 
elections, but also that the government-elect has been able to assume 
power. Simply basing the U.S. policy on the March 16 constitutional 
referendum is insufficient all three main political parties campaigned 
for the adoption of the new constitution--and it is only one successful 
stop along a long road of change.
    Instead, positive engagements with Mugabe and his Zimbabwe African 
National Union-Patriotic Front (ZANU-PF) party should be conditioned on 
tangible progress in improving respect for human rights and the rule of 
law in Zimbabwe. Mugabe's recent calls for peace are not enough; there 
is need for matching action to demonstrate a commitment to nonviolence 
and to peaceful elections.
                     i. the human rights landscape
    The human rights landscape in Zimbabwe is characterized by a 
mixture of modest reforms in the context of a number of necessary 
reforms that remain outstanding if genuine change is to occur.
A. ``Unity Government'' Reforms
    In September 2008 President Mugabe's ZANU-PF and the two factions 
of the Movement for Democratic Change (MDC) party, led by Morgan 
Tsvangirai and Arthur Mutambara, agreed to a Global Political Agreement 
(GPA) to form a power-sharing government, formed officially in February 
2009. The main purpose of the so-called unity government was to 
establish institutional and legal reforms to create a conducive 
environment for the holding of free and fair elections.
    The unity government, however, left Mugabe and ZANU-PF--because of 
their control of key government ministries including defense, state 
security, and justice--with significantly greater power than the MDC, 
which has been used to frustrate or stop crucial reforms. Over 4 years 
since the GPA was signed, the unity government has made some progress 
only in implementing those parts of the agreement that do not address 
political violence or create conditions for credible elections.
            Establishment of a New Constitution
    Perhaps the most significant reform is the establishment of the new 
constitution, signed into law by President Mugabe on May 22, 2013, 
following a March 16 referendum and approval by the Zimbabwe 
Parliament. The new constitution, which replaces the 1979 Lancaster 
House Constitution, may prove beneficial to the electoral process as it 
prohibits any changes to the electoral law once elections have been 
called. It has a more expansive bill of rights, and it restores 
citizenship and voting rights to those born in Zimbabwe to a parent or 
parents with citizenship of another SADC country but resident in 
Zimbabwe.
    While very important, the new constitution is only one of the 
reforms required for an environment conducive for credible elections. A 
number of laws, including the electoral laws, require amendment to be 
brought in line with the provisions of the new constitution. For the 
new constitution to benefit all Zimbabweans government leaders and 
state institutions must respect the constitution and fulfill its 
provisions. Failure to act in accordance with constitutional provisions 
has been a major challenge contributing to a poor human rights 
environment in the country.
            Establishment of National Commissions
    The unity government established four new national commissions--the 
Zimbabwe Electoral Commission (ZEC), the reconstituted Zimbabwe Media 
Commission, the Anti-Corruption Commission, and the Zimbabwe Human 
Rights Commission (ZHRC).
    The Zimbabwe Electoral Commission's Secretariat staff is dominated 
by partisan state intelligence and military officials. Electoral 
reforms are essential if the Zimbabwe Electoral Commission is to be 
independent and professional. Further, the voters roll needs to be 
updated and to be placed under ZEC's exclusive control.
    The potential impact of the Zimbabwe Human Rights Commission on the 
human rights environment, particularly curtailing impunity for serious 
abuses, is undermined by the commission's limited mandate and 
jurisdiction--it is insufficiently retroactive as it can only 
investigate and address human rights abuses committed since February 
13, 2009, when the unity government was formed. Notably, it is not 
empowered to address the widespread electoral violence of 2008. Also 
problematic is that the ZHRC is not fully operational to address human 
rights complaints or carry out its core mandate because of lack of 
resources to recruit technical staff and procure essential office 
equipment.
    The Zimbabwe Media Commission has licensed new newspapers, 
including the once banned Daily News, that are now operating in the 
country, but the media remain under the shadow of repressive 
legislation that severely restricts rights to freedom of expression and 
association. This includes broad sections of the Criminal Law 
(Codification and Reform) Act on criminal defamation or publicly making 
statements that may cause feelings of hostility toward or cause hatred, 
ridicule, or contempt of the President--whether in person or in respect 
of the Office of President.
    The ZANU-PF minister for media, information, and publicity 
unilaterally and controversially constituted the Broadcasting Authority 
of Zimbabwe (BAZ), which has since issued two private commercial radio 
licenses as part of the commitment to free up the airwaves. The first 
commercial radio station, Star FM, is owned by Zimpapers--a state-owned 
company that publishes all state-owned newspapers, including the ZANU-
PF-aligned Herald daily newspaper. The only other private commercial 
radio license was awarded to AB Communications to run ZiFM Radio.
    There is concern that the two radio stations will be highly 
partisan reflecting their close links to Mugabe and ZANU-PF. For 
instance, Supa Mandiwanzira, the founder and chief executive officer at 
ZiFM Radio, is the ZANU-PF treasurer for Manicaland province.
    Despite the provision in the roadmap to elections that new, 
independent boards for the Mass Media Trust and the Zimbabwe 
Broadcasting Corporation should be appointed to make state-owned 
broadcasting and print media politically neutral, this has not 
happened. There have been limited media reforms to ensure that the 
highly partisan state-controlled print and electronic media become 
genuinely public, to guarantee equal and fair coverage to all political 
parties.
B. No Meaningful Security Sector, Legal & Institutional Reforms
    The Zimbabwe unity government's failure to introduce and implement 
far-reaching reforms in the security sector and in other sectors has a 
huge bearing on the human rights situation in the country especially 
around elections.
            Highly Partisan and Politicized Security Forces
    Crucial for the elections--and the government that comes to power--
will be the role played by Zimbabwe's state security forces, 
particularly the Defense Forces, the police, and the Central 
Intelligence Organization (CIO). The security forces have a long 
history of partisanship on behalf of President Mugabe and ZANU-PF. 
Since independence in 1980, the army, police, and CIO have operated 
within a system that has allowed elements within their ranks to 
arbitrarily arrest, torture, and kill perceived opponents with 
impunity.
    Zimbabwe's security forces, notably the military, have for several 
years interfered in the nation's political and electoral affairs in 
ways that have adversely affected the ability of citizens to vote 
freely. This was particularly evident during the 2008 elections, in 
which the army played a major role in the widespread and systematic 
abuses that led to the killing of at least to 200 people, the beating 
and torture of 5,000 more, and the displacement of about 36,000 others. 
Since then the leadership of the military, police and CIO, all 
appointed by Mugabe, remain unchanged, as have their clear, public and 
vocal support for Mugabe and ZANU-PF.
    The partisanship of the security forces' leadership has translated 
into abuses by these forces against MDC members and supporters, and 
civil society organizations. Beyond the open endorsement of ZANU-PF, 
the security forces have been deployed across the country where they 
have intimidated, beaten, and committed other abuses against 
Zimbabweans perceived to be supporting the MDC or critical of the ZANU-
PF officials in government.
    Although Zimbabwe's various laws, as well as the new constitution, 
require neutrality and impartiality from the security forces, no effort 
has been made to enforce them. No members of the security forces are 
known to have been disciplined or prosecuted for acting in a partisan 
manner in support of ZANU-PF or committing criminal offenses against 
the MDC and its supporters. Concerns about the role of the security 
forces extend not only to situation prior to election day and the 
voting itself, but to the critical post-election period.
    There is an urgent need, ahead of the elections, to ensure that the 
new constitutional provisions prohibiting members of the security 
services from acting in a partisan manner and from being active members 
or office-bearers of any political party or organization are enforced 
to ensure strict political neutrality. Should the security forces fail 
to adopt a professional, independent and nonpartisan role during 
elections, other recent reforms may be insufficient to deliver the 
elections needed to put Zimbabwe on a democratic and rights-respecting 
track.
            Restrictions on Rights to Freedom of Expression, 
                    Association, and Assembly
    The unity government has failed to make any changes to repressive 
laws such as the Access to Information and Protection of Privacy Act 
(AIPPA), the Public Order and Security Act (POSA), and the Criminal Law 
(Codification and Reform) Act. These laws have been used to severely 
curtail basic rights through vague defamation clauses and draconian 
penalties. Provisions dealing with criminal defamation and undermining 
the authority of or insulting the president have been routinely used 
against journalists and political activists.
    Partisan policing and prosecution has worsened the impact of the 
repressive provisions in POSA and AIPPA laws. Often the police have 
deliberately misinterpreted provisions of POSA to ban lawful public 
meetings and gatherings, including religious meetings that are exempt 
from police permission where the requirement is only for police to be 
notified. Failure to repeal or significantly revise these laws and to 
develop mechanisms to address the partisan conduct of the police leaves 
little chance of a full enjoyment of the rights to freedom of 
association and assembly in the runup to and during the coming 
elections.
    The Criminal Procedure and Evidence Act in section 121 effectively 
permits prosecutors to overturn judicial rulings granting bail and 
extend detention time by 7 days. It has frequently been used by 
prosecutors targeting political and civil society activists who work 
with local human rights organizations.
            Police Crackdown on Civil Society
    Since December 2012, the ZANU-PF-controlled police have carried out 
a campaign of politically motivated abuses against civil society 
activists and organizations, including the harassment and 8-day 
detention of human rights lawyer, Beatrice Mtetwa, despite a High Court 
order for her release. The judge who issued the court order for her 
release was later charged with misconduct by the Supreme Court's Chief 
Justice. At time of writing the judge's misconduct case was pending 
consideration by President Mugabe.
    On March 8, 2013, in Harare, police charged Jestina Mukoko, 
director of the Zimbabwe Peace Project, with leading an unregistered 
organization under the Private Voluntary Organization (PVO) Act, and 
with smuggling radios and mobile phones into the country in violation 
of the Broadcasting Services Act and the Customs and Excise Act. The 
charges under the PVO Act violate the right to freedom of association, 
while the other charges appear to be a politically motivated attempt to 
curtail the group's human rights work.
    On February 13 and 14, police in Harare and Bulawayo forcibly 
disrupted the annual Valentine's Day ``love'' protests by about 190 
members of Women of Zimbabwe Arise (WOZA). The police arbitrarily 
arrested, detained and in some cases beat with batons protesters, 
including the WOZA national coordinator, Jenni Williams. The protesters 
were released without charge following the intervention of lawyers.
    On February 11, in what appears to have been coordinated action, 
police raided the offices of the National Association of NGOs (NANGO) 
and Community Tolerance Reconciliation and Development (COTRAD) in 
Masvingo and the Zimbabwe Peace Project (ZPP) offices in Harare.
    On March 8, the ZANU-PF-controlled Zimbabwe Electoral Commission 
announced that any civil society organization under police 
investigation would be barred from monitoring the constitutional 
referendum and elections. This directive directly affected the main 
civil society organizations operating in the country, including ZPP, 
Zimbabwe Human Rights Association (ZimRights), Zimbabwe Election 
Support Network, and Crisis in Zimbabwe Coalition.
    The recent police actions against civil society groups appear to 
have had the approval of the highest levels of the police. At the 
Senior Police Officers' Conference in November 2012, attended by 
country's top police officers, an official statement was approved 
noting ``with concern the negative influence and subversive 
activities'' of nongovernmental and civil society organizations in the 
coming referendum and elections.
    A similar resolution was approved at the December 2012 ZANU-PF 
annual conference, which was attended by all security chiefs. ZANU-PF 
resolved to ``instruct the party to ensure that government enforces the 
de-registration of errant [organizations] deviating from their 
mandate.''
    Soon after these statements were approved, the police began a 
sustained and systematic campaign of harassment and intimidation of 
civil society organizations. On December 13, police raided the offices 
of ZimRights and arrested four people, including one of the 
organization's staff. A month later, on January 14, police arrested the 
ZimRights national director, Okay Machisa, ostensibly in his capacity 
as director of the organization, on charges relating to a voter 
registration campaign. Machisa spent over 2 weeks in detention before 
being released on bail.
    On January 18, the ZANU-PF minister for youth and indigenization, 
Saviour Kasukuwere, formally approved regulations requiring all youth 
organizations to be registered with the Zimbabwe Youth Council or to be 
banned. Under these regulations, no youth organization may receive 
funding without authorization from the youth council and all members or 
affiliates of registered youth organizations are required to pay 
exorbitant annual levies to the youth council. These regulations may 
cripple the operations of youth organizations throughout the country.
    The systematic police campaign against civil society organizations 
may be a deliberate attempt to disrupt the operations of civil society 
organizations and stop them from monitoring the human rights 
environment ahead of the elections.
              ii. key recommendations to the us government
    The U.S. Government has a strong interest in promoting respect for 
the rule of law, good governance, and human rights. In southern Africa, 
the United States can safeguard and promote these interests by 
supporting the people of Zimbabwe at this time by helping to minimize 
the risk of the country sliding back to political chaos and widespread 
rights violations.
    As the United States considers the best way to assist the 
Zimbabwean people to resolve their human rights and governance crisis, 
we urge Congress to consider the following measures.

    (1) Ensure that any shift in U.S. policy toward Zimbabwe, including 
a review of sanctions, is based on an assessment of whether the country 
has managed to have peaceful, transparent, free and fair elections and 
whether the government-elect can assume power.
    (2) Call on the Obama administration to work closely with the 
Southern African Development Community (SADC) to press Zimbabwe's 
political leaders to urgently take steps to:

  <bullet> Ensure the political neutrality of the security forces, 
        namely by investigating and prosecuting alleged abuses by 
        security force personnel, publicly directing the leadership of 
        the security forces to carry out their responsibilities in a 
        professional and impartial manner, and appropriately punishing 
        or prosecuting those who fail to do so;
  <bullet> Press for urgent reforms to the highly partisan state-
        controlled print and electronic media to ensure that they 
        become genuinely public, to guarantee equal and fair coverage 
        to all political parties;
  <bullet> Provide for the immediate deployment, and in sufficient 
        numbers, of both domestic and SADC-led international election 
        observers to Zimbabwe and maintain such monitors for a 
        sufficient period after elections to deter violence and 
        intimidation and to promote credible, free and fair elections 
        that comply with the SADC Principles and Guidelines Governing 
        Democratic Elections;
  <bullet> Ensure implementation of all electoral reforms envisaged in 
        the new constitution including the updating and cleaning up the 
        country's outdated voters' roll, which has a significant number 
        of ``ghost'' voters; and
  <bullet> Ensure that the Zimbabwe Government repeals or amends all 
        repressive legislation such as the repressive sections of the 
        Criminal Law (Codification and Reform) Act, the Public Order 
        and Security Act, the Access to Information and Protection of 
        Privacy Act and section 121 of the Criminal Procedure and 
        Evidence Act.

    (3) Provide financial and technical support for a government that 
comes to power through credible, free, and fair elections in a manner 
that would strengthen democratic state institutions and promote the 
rule of law, democracy, good governance, and human rights.

    Mr. Chairman, my sincere thanks once again for the opportunity to 
address this committee. I am happy to respond to any questions you or 
your colleagues may have.

    Senator Coons. Thank you, Mr. Mahvinga.
    Mr. Schneider.

      STATEMENT OF MARK SCHNEIDER, SENIOR VICE PRESIDENT, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Schneider. Mr. Chairman, let me express my appreciation 
to you and to Senator Flake and members of the Senate Foreign 
Relations Subcommittee on Africa for the opportunity to testify 
this morning and for focusing attention on what we do see as a 
looming electoral crisis in Zimbabwe.
    Crisis Group, as you know, is independent, nonpartisan, and 
nongovernmental. We try and provide field-based analysis of the 
drivers of conflict and offer some policy prescriptions to try 
and prevent deadly violence or to bring it to an end where it 
exists.
    We have reported on Zimbabwe's dismal state of governance, 
deterioration of human rights, and worsening economic 
conditions for more than a decade. In March 2008 our 
preelectoral report was entitled ``Prospects from a Flawed 
Election.'' Unless urgent actions are taken over the next 
several weeks, we fear Zimbabwe is facing deja vu and 
essentially return to the same potential chaos that we saw in 
2008.
    Our May report, which I believe the committee has, cited 
the absence of a level playing field. Recent actions have 
tilted the playing surface even more sharply. Last Thursday, 
for the first time since the coalition government of ZANU-PF 
and the two MDC factions was formed, President Robert Mugabe 
issued his first Presidential decree under emergency power, 
setting the election date for 31 July. He issued a second 
decree which short-circuited the democratic process, overrode 
constitutional electoral timelines. It shortened voter 
registration. It shortened candidate registration, and it 
shortened periods for the campaign itself, and in so doing 
immediately drew challenges from the MDC and civil society as 
unfair and unconstitutional.
    This weekend, the SADC heads of state met as the oversight 
and monitoring authority on compliance with the Global 
Political Agreement and received South African President Jacob 
Zuma's report on Zimbabwe. He essentially cited some of those 
same concerns. He noted, in words that we would echo, that the 
GPA commitment was that, ``elections shall be held under 
conditions where all parties shall participate freely, on equal 
footing, in an environment free of intimidation and violence, 
and that this is necessary to bring into being the next 
government, which shall enjoy undisputed credibility.''
    Essentially, without those reforms and without that kind of 
credible election, Zimbabwe is going to find itself again 
essentially as an outcast. It should be noted that his report, 
which I assume the committee has, the recommendations were 
endorsed by the SADC heads of state in that communique, and 
thus far they noted that the failure--they have seen the 
failure to see the adoption of reforms on media, political 
participation, security, electoral procedures, and they noted 
that the 31 July date, ``is fraught with legal contestation, 
political dispute, and heightened tensions.''
    They specifically urged all of the parties in Zimbabwe to 
seek more time. Some have interpreted that as 2 weeks. That is 
not what the communique said. That is not what President Zuma's 
report said. It said seek more time, essentially to ensure that 
the opportunity for a fair and free election is there.
    The reason why is that 6 weeks prior now to July 31, there 
is no agreed and final registration rolls, there is no 
electoral law approved by the Parliament, no candidates 
formally nominated or approved by the nomination court, not 
only for President, but for 358 parliamentary seats and local 
and urban and rural councils as well. There is little time for 
ballots to be printed, less time for them to be distributed to 
basically 9,500 polling stations, and no time for the 30-day 
campaign set out in the constitution after the candidates are 
approved. There is no testing of electronic tabulation 
processes, no agreement yet for who the domestic electoral 
monitors can be, nor authorization for international electoral 
monitoring, and no transparent indication of how the election 
will be funded, which the committee has already raised in the 
previous testimony.
    Our single greatest worry, however, is the conduct of 
Zimbabwe's security forces leading up to elections, the day of 
elections, and the post-election period. We have urged, 
obviously, an end to state-sponsored violence, for security 
reform, protection of civil society and political party 
activists as necessary to end the politics of fear in Zimbabwe. 
Unfortunately, what we have seen is we have seen continued 
partisan statements from leaders of the security forces that 
obviously raise additional concerns.
    It should be noted that the report from President Zuma 
cited the same concerns and called for a public code of conduct 
for the security forces because of those partisan statements by 
the military leadership. We have seen and we reported in May 
that the Zimbabwe Armed Forces have expanded their deployment 
nationwide, particularly into swing provinces, Manicaland and 
Masvingo, for legitimate, on the face of it, purposes: food 
distribution, disaster preparedness, and carrying out research 
on the army's history during independence. There is some 
concern that the message is intimidation.
    I would just simply say, given the time, that what we have 
argued is that what needs to be done at this point is the 
United States--the United States Government--needs to clearly 
support SADC on insisting that the reforms that they have laid 
out are put into place in order to allow Zimbabwe to step back 
from a political abyss, which we see is threatening internal 
violence, regional instability, and a needless return to 
international isolation.
    That is why our answer to your question of what the United 
States should do is support SADC in all possible ways, to 
insist on the minimal redlines a credible electoral process, 
urge SADC to deploy as early as possible a nationwide 
monitoring and observation network that covers electoral 
infrastructure, electoral security, ideally embedding SADC 
police with Zimbabwe police, and electoral participation. If 
SADC needs additional resources to complete its mission, we 
would hope that the United States would respond appropriately.
    And finally, the United States should publicly indicate 
that it is willing, once credible and peaceful elections are 
held, to cooperate with the new government that comes into 
being through an election that's judged by all sides to be 
credible, transparent, and peaceful.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schneider follows:]

                Prepared Statement of Mark L. Schneider

    I would like to express my appreciation to the chairman, Senator 
Christopher Coons, ranking member, Senator Jeff Flake, and members of 
the Africa Subcommittee of the Senate Foreign Relations Committee for 
the opportunity to testify this morning and for focusing attention on a 
looming electoral crisis in Zimbabwe.
    Crisis Group is an independent, nonpartisan, nongovernmental 
organization that provides field-based analysis, policy advice, and 
recommendations to governments, the United Nations, the European Union 
and other multilateral organizations on the prevention and resolution 
of deadly conflict. Crisis Group was founded in 1995 by distinguished 
diplomats, statesmen, and opinion leaders including Career Ambassador 
Mort Abramowitz, Nobel Prize winner and former Finnish President, 
Martti Ahtisaari, late Congressman Stephen Solarz, and former U.N. and 
British diplomat, Mark Malloch-Brown.
    Ambassador Thomas Pickering is our current chairman. Louise Arbour, 
former chief prosecutor at the International Criminal Tribunals for 
Rwanda and for the former Yugoslavia, and former U.N. High Commissioner 
for Human Rights, is our current president. In 2011, Crisis Group was 
awarded the Eisenhower Medal for Leadership and Service.
    Crisis Group publishes some 80 reports and briefing papers 
annually, as well as a monthly CrisisWatch bulletin. Our staff is 
located on the ground in 10 regional offices, and 16 other locations, 
covering between them over 60 countries and focused on conflict 
prevention and post-conflict peace-building. We maintain advocacy and 
research offices in Brussels (our global headquarters), Washington, and 
New York. We have liaison offices in London, Beijing, and Moscow.
    Crisis Group's Johannesburg-based southern Africa project has for 
some time been focused on the dismal state of governance, deterioration 
in human rights, and worsening economic and political conditions in 
Zimbabwe. In March 2008, we published a preelectoral report entitled 
``Prospects from a Flawed Election.'' Hopefully a similar unhappy 
result will not reoccur.
    Since the 2008 crisis, we have published nine reports on the post-
electoral process in Zimbabwe, analyzing the negotiations, the Global 
Political Agreement (GPA) and the Southern Africa Development 
Community's (SADC) role in helping the country chart a reform roadmap 
to elections and a democratic transition. As the coalition government 
and transition Parliament's terms come to an end under the GPA on 29 
June, instead of consensus and compromise, we see confrontation and 
conflict.
    For the first time since that coalition government was formed, 
President Robert Mugabe issued a Presidential decree last Thursday that 
short-circuits the democratic process, by-passing the still functioning 
Parliament, cutting short voter registration, overriding constitutional 
provisions on time-lines for candidate nominations and posing obstacles 
to critical reforms that are essential not only to achieve fair and 
free elections but to achieve peaceful, credible, and transparent 
elections. The playing field--as we concluded in our 6 May report 
``Zimbabwe: Election Scenarios'' and our analysts reaffirmed recently 
in Harare--is far from level.
    Over the weekend, SADC heads of state met as the oversight and 
monitoring authority of compliance with the GPA and received a report 
from its current facilitator, South African President Jacob Zuma. The 
report underscored the GPA commitment that ``elections shall be held 
under conditions where all parties shall participate freely, on equal 
footing, in an environment free of intimidation and violent; and that 
this is necessary in order to bring into being the next government 
which shall enjoy undisputed credibility.''
    We strongly agree with those views.
    President Zuma reported on actions related to the pending 
harmonised elections with a clearly critical message that resulted in 
SADC issuing warnings to Zimbabwe regarding compliance with the 
previously negotiated GPA electoral roadmap. SADC essentially called 
for important reforms to be in place before elections are held and also 
urged the government to request the Constitutional Court to delay its 
call for elections prior to 31 July to permit compliance with current 
constitutional electoral provisions and enable key reforms to be 
adopted. The 31 July date, the Zuma report stated ``is fraught with 
legal contestation, political dispute and heightened tensions. . . . ''
    Among the reforms discussed in President Zuma's report which were 
endorsed in the SADC communique were the following, many of which touch 
on concerns that we also have raised:

  <bullet> Media reforms;
  <bullet> The rule of law (which explicitly refers to security 
        concerns regarding military and intelligence interference in 
        the elections which would be in violation of Section 208 of the 
        new Constitution);
  <bullet> The role of the Joint Monitoring and Implementation 
        Committee (JOMIC);
  <bullet> Electoral date, Validity of Electoral Regulations; and
  <bullet> Deployment of SADC elections observers.

    We remain hopeful that SADC will continue to insist on those 
reforms and convince not only President Mugabe but all parties to step 
back from a political abyss that threatens internal violence, regional 
instability and a needless return to international isolation.
    The shortest possible response to ``What should the United States 
Government do at this critical moment?'' Mr. Chairman, is simply this: 
Support SADC in all possible ways to insist that the minimal 
``redlines'' be adhered to for a credible presidential, parliamentary 
and local election.
    SADC will hopefully quickly open an office in Harare and establish 
a nationwide monitoring apparatus covering electoral infrastructure, 
electoral security, and electoral participation. Where those basic 
reforms are agreed, the U.S. can offer whatever technical, financial 
and other assistance that might be needed. In addition, the U.S. should 
reiterate its readiness to cooperate with a new government if chosen in 
an election that is judged by all sides in Zimbabwe and SADC to be 
transparent, peaceful, and credible.
    Where we stand: The clock is running now on what may be 6 weeks 
until a hastily called election in a country that suffered widespread, 
brutal national violence during and following its last flawed and 
discredited election in 2008.
    In the wake of the 31 May court ruling that elections must be held 
before 31 July, the focus inside and outside Zimbabwe is whether there 
is any way to avoid a repeat of the undemocratic and violent 2008 
elections. We believe that there still are options that include a 
pragmatic political consensus on delaying for several months--but not 
later than 29 October--the actual date, and getting court concurrence. 
President Mugabe's disputed decree setting 31 July as the election date 
also would have to be modified. However, additional time is clearly 
needed to permit the implementation of basic reforms to avoid a repeat 
of the 2008 disaster. His subsequent Executive order making a series of 
amendments to electoral law that shorten registration, nomination, and 
campaign periods also has drawn opposition charges of 
unconstitutionality.
    The new constitution provides that the current 30-day voter 
registration period be completed, a process that would take to 9 July. 
It also provides that the Nomination Court sit for 14 days thereafter 
for candidates to register and be accepted and then allows for a 
minimum of 30 days campaigning, which cannot feasibly occur by 31 July.
    At this stage, there is:

  <bullet> No agreed and final registration roll;
  <bullet> No electoral law approved by Parliament;
  <bullet> No candidates formally nominated or approved for President 
        or for 358 seats in Parliament;
  <bullet> No time for a campaign after candidates are named;
  <bullet> Little time for ballots to be printed;
  <bullet> Less time for ballots to be distributed to 9,449 polling 
        stations;
  <bullet> No testing of electronic tabulation processes;
  <bullet> No agreement for domestic electoral monitoring;
  <bullet> No authorization for international electoral monitoring; and
  <bullet> No transparent indication of how the election will be 
        funded.

    Behind the procedural and legal issues, there are critical 
unresolved political issues that complicate the current election that 
Crisis Group outlined in its last report: Within the Zimbabwe African 
National Union-Patriotic Front (ZANU-PF), ``hardliner'' and 
``reformist'' camps are fighting over who will succeed 89-year-old 
President Robert Mugabe in the future. The opposition, the Movement for 
Democratic Change (MDC-T) led by Prime Minister Morgan Tsvangirai is 
struggling with infighting and limited capacity to mobilise its 
supporters, let alone to find avenues for electoral cooperation with 
the other MDC faction, which itself is divided. Some officers high in 
the security and intelligence forces seem unwilling to contemplate a 
possible opposition win and their rhetoric and increased deployment in 
swing provinces constitute intimidation.
    The way forward also requires a clear understanding of the 
unfulfilled elements within the GPA that would help lay foundations for 
normalizing political processes and, by extension, foster conditions 
for free and fair elections. Unfortunately, the GPA was treated as a 
``cease-fire'' document and as a framework for further negotiation, 
rather than as a formal agreement to be implemented. Despite a new 
constitution, this central drawback remains largely unchanged as 
resistance to reform continues to characterise the country's uneven 
power-sharing arrangement. The two uneasy party partners in that 
coalition government are President Robert Mugabe and ZANU-PF; and the 
wings of the Movement for Democratic Change, the 
MDC-T of Prime Minister Tsvangirai and the remaining MDC faction. An 
election roadmap was drawn up in July 2011, but key areas of 
disagreement relating to elections, the media, security environment, 
and institutional partisanship have not been adequately addressed.
    There are also profound concerns that an election outcome that 
results in ZANU-PF losing power will not be respected by powerful 
elements in the security forces. Many military and intelligence 
officers articulate partisan political preferences under the guise of 
defending the gains of Zimbabwe's national democratic revolution. They 
even have described the MDC partners in government, particularly MDC-T 
and its leader, Morgan Tsvangirai, as national (and regional) security 
threats. Such dangerous rhetoric has yet to be countermanded by 
President Mugabe, the commander in chief of the country's defense 
force.
    There have been some reforms put in place, highlighted by the 
adoption of a new constitution endorsed by over 95 percent of 
Zimbabweans who participated in the 16 March referendum. The 
replacement of the much criticized independence/Lancaster House 
constitution has both substantive and symbolic value. It was critical 
in the GPA and pressed by the Southern Africa Development Community 
(SADC), which monitors the GPA. However, its passage has had virtually 
no immediate or direct impact yet on achieving ``free and fair'' 
conditions for the elections.
    An overview of key reform concerns and what may be possible in a 
restricted timeframe to help build toward a credible election process 
and outcome remains pertinent.
    Three major goals called for under the GPA have yet to be achieved:

          (i) An end to state sponsored violence;
          (ii) Security sector reform; and
          (iii) Formation of adequately funded, credible, independent 
        electoral authorities.

    With respect to these goals, key reforms promised in the draft 
election roadmap that was signed in July 2011 by all GPA participants 
have been blocked. With respect to the integrity of the electoral 
process, the key reforms are aimed at:

          (i) Access to information;
          (ii) Freedom to participate; and
          (iii) Safety and security.

    All require urgent attention;
                        1. access to information
    Media and the State Broadcaster: The media environment remains 
distorted and partisan. The State broadcaster (TV and especially radio) 
remains the primary source of information for most Zimbabweans. Largely 
hostile to MDC formations (especially MDC-T), it is unashamedly 
partisan to ZANU-PF. The new commercial FM radio stations Star FM and 
Zi-FM have provided limited alternative voices but even here their 
ownership underscores a ZANU-PF bias.
    ZANU-PF continues to point to ``pirate radio stations'' and 
``independent'' print media as evidence of ``balance'' and progress 
toward a ``free media.'' External radio and local independent 
newspapers, however, have a very limited footprint compared to the 
state broadcaster. Consequently the media environment is severely 
prejudiced against parties other than ZANU-PF.
    The Minister of Information and Publicity should urgently instruct 
state media (both electronic and print media) to: ensure balanced and 
objective reporting; provide reasonably equal access; desist from 
publishing and broadcasting hate speech; accept paid advertisements 
from all political parties; and also provide priority access to the 
Zimbabwe Electoral Commission (ZEC) for public service voter education 
announcements. Instructions should be public to rebuild public 
confidence in State media and foster citizen accountability for media 
freedom.
    Longer term concerns regarding regulation and partisan governance 
of the media, including amending restrictive provisions of the Access 
to Information and Protection of Privacy Act (AIPPA) and Public Order 
and Security Act (POSA), were to be part of the reform agenda and at 
least must be addressed in the post-election environment, and 
commitment to address these concerns should be secured by all parties.
    Extension of Voter Education: The ZEC must accredit more civil 
society organisations to undertake voter education about new election 
rules, regulations, and procedures, including how to access the voters 
roll, how to check for accuracy and where to file complaints. The ZEC 
should proactively enable civil society organisations, including faith-
based networks to disseminate information about the forthcoming 
elections, processes, and institutions. The ZEC should also direct the 
Zimbabwe Republic Police (ZRP) to stop interfering with civil society 
groups who disseminate information about elections and election 
processes. Continued harassment of those involved in voter education 
effectively criminalizes the exercise of basic democratic rights, 
undermines public trust in election and consolidates concerns that the 
ZRP is pursuing a partisan political agenda.
                       2. freedom to participate
    Citizen Verification of Voter Registration and an Audit of Voters 
Roll: No voters roll is perfect, but in Zimbabwe there have been 
widespread and well-founded concerns that the roll has been used as a 
tool to manipulate participation and exclusion. According to the ZEC in 
April, the Registrar General had registered 60,000 new voters and 
removed 345,000 deceased persons since December 2012. Yet there are 
continuing concerns of over and under registration that only credible 
auditing of the rolls can remedy. Since the April-May 21-day 
registration process, another 200,000 voters were reported added 
yielding an estimated but highly questionable total of 5.87 million. 
Political parties sharply criticised the differing standards, hours, 
resources available to register voters in different constituencies and 
a seeming surfeit of opportunities in ZANU-PF areas and far fewer in 
areas seen as favoring MDC. A new 30-day voter registration drive that 
started on Monday 10 June must address the shortfalls and anomalies 
identified in the May process. Anecdotal feedback during the first week 
suggests, however, that many problems remain.
    The current final registration process which should last for 30 
days now is being cut short by Presidential order to 17 days. Assuring 
that a final roll including all eligible voters is prepared and 
available is not a simple task--and with voters able to vote in any 
ward in their electoral district the potential for fraud rises 
considerably.
    The integrity of the voters roll would be vastly enhanced by a full 
ZEC supervised audit of the existing roll. This could be done in a 
short timeframe and resources with resources already available through 
external EU funders. If SADC requested additional funding to support an 
independent audit, we would urge the U.S. to support such an effort.
    Beyond the parties, the public should be provided with a reasonable 
time and opportunity to check the voter roll and effective methods to 
correct all flaws, particularly those that exclude citizens from 
voting.
    Utilisation of Social Media: The ZEC and Registrar General must 
improve from their performances during the May registration drive when 
neither advertised any details on their respective Web sites. They need 
to take advantage of social media and the Internet to communicate the 
location of mobile voter registration stations, their hours and days of 
operation, registration procedures, required documentation, appeal 
mechanisms and their right to be registered should they meet all 
prerequisites.
    The integrity of the voting process itself must include particular 
attention to the early/special voting process for elections, estimated 
to be some 100,000, to ensure concerns about multiple voting are 
minimised and if possible totally eradicated.
    Reporting Election Results: It seems unlikely that ZEC will have 
the necessary technical infrastructure in place to ensure electronic 
reconciliation of voters roll for early voters or even on election day. 
In addition the ZEC does not have equipment for transmission of polling 
station results which will mean a reliance on Zimbabwe Republic Police 
communication equipment. At the very least, public details on the 
processes that will be followed should be made available to avoid as 
far as possible misapprehensions and distrust. The full tabulation and 
reporting process should be monitored by SADC observers.
    Political Campaigning: Conditions must be ensured for the promotion 
of free political activity across the country. Each party must actively 
promote political tolerance and be seen to be doing so. There should be 
widespread dissemination of the political parties' code of conduct 
(during elections) by the parties themselves, but also through civil 
society and democracy supporting institutions. A remedial 
infrastructure to address any violations must be functioning and 
accessible.
    Party Code of Conduct: Given the existing polarization, and taking 
into account the 2008 election dispute, all parties, especially those 
in the GPA, must consent and sign a code of conduct, with SADC as 
witness. The code should be widely disseminated and commit parties to 
promote political tolerance, reject any use of violence by their 
members (with threat of expulsion from the party for any who engage in 
those acts), and agree to settle any election outcome dispute through 
the formal channels ultimately outlined in the Electoral Act. Its 
compliance should be monitored by ZEC, the Zimbabwe Human Rights 
Commission and if passed and functioning, the ``Special Investigation 
Committee'' provided for in the draft Electoral Act, as well as by 
SADC.
    Developing early warning and rapid response capacities: Zimbabwean 
parties should put in place early warning and rapid response mechanisms 
to deal with issues of violence and intimidation as a matter of 
urgency. A reconfiguration of the existing Joint Monitoring and 
Implementation Committee (JOMIC) structure presents the most realistic 
institutional option, but again requires political will and SADC 
support.
    Strengthening Monitoring and Observation: An early SADC observation 
and monitoring mechanism must be put in place in compliance with the 
recommendations of the Democracy and Electoral Assistance Unit (DEAU) 
of the African Union, which in 2012 noted the need for African 
elections to transform toward long-term observation. Ideally, SADC 
observers and monitors must be in place at least 60 days before 
elections; now, they should be urgently deployed. Funding to underwrite 
a meaningful monitoring and observer footprint should be assured, and 
in addition to EU funding support to SADC, the U.S. should be prepared 
to respond urgently to any requests.
    In addition, observers should be drawn from a range of other 
countries. ZANU-PF's control over the Foreign Ministry already has seen 
rejection of proposals from countries which have current sanctions on 
Zimbabwe, such as the U.S. Hopefully that will change. But there are 
other countries with good democratic credentials who should be 
encouraged to apply.
                         3. safety and security
    Issues of political violence and allegations of partisanship within 
Zimbabwe's security services have been effectively side-stepped during 
the life of the GPA. Although wide-scale political violence has 
remained at a low level, it is worth remembering that the situation in 
February and March 2008 was also peaceful. Understanding how violence 
manifests in Zimbabwe requires a more sophisticated analysis of its 
characteristics and the infrastructure that services it. Despite 
mitigating interventions to promote reconciliation and conflict 
resolution in many communities across Zimbabwe, the infrastructure of 
repression remains largely in place. The ``politics of fear'' continues 
to harvest on the legacy of abuse, institutional bias, and systemic 
impunity. Even over recent months, there have been serious instances of 
harassment and intimidation against civil society activists and 
opposition political leaders particularly in rural communities. The 
absence of a visible deterrent or effective remedy to further abuse is 
a significant factor in the current environment.
    Equally worrisome has been a recent expansion of deployment of the 
Zimbawe National Army, which we detailed in our May report, for what 
appear to be worthy public purposes such as food distribution, disaster 
response preparation and a 
so-called army history of independence. The concentration of those 
deployments in political swing provinces such as Manicaland and 
Masvingo raises concerns.
    Security sector reform has been deadlocked by ZANU-PF opposition, 
despite calls for ``security sector realignment'' from SADC. There is 
substantial fear that security forces could take actions to undermine 
the campaigns and serious concern that they will not remain neutral as 
election results are being tabulated. The continued push for a credible 
and transparent election process by domestic and regional civil society 
and political figures, requires a diplomatic strategy to address these 
electoral and post-electoral security sector concerns.
    The legacy of mistrust--the centrality of the Zimbabwe Republic 
Police: Zimbabwe has a long history of election related violence and 
intimidation. This history is compounded by systemic levels of 
impunity. Consequently, many ZRP perpetrators continue to live within 
the same communities where abuses occurred. While the police are only 
identified as perpetrators in a minority of cases, there are widespread 
allegations that they failed to protect citizens under attack or to 
adequately investigate political violence. It should be noted that the 
vast majority of people subject to politically related abuse between 
2008 and 2012 have not reported these matters to the police. Details on 
over 12,000 cases covering this period were submitted in September 2012 
to JOMIC facilitation team. In over 90 percent of these cases, the 
matter was not reported to the police by the victims. The police 
hierarchy has compounded concerns by demonstrating clear political 
partisanship in favour of ZANU-PF. Evidence in this regard is 
incontrovertible.
    As with other aspects of Security Sector Reform, concerns about the 
police require a long-term strategy. There are, however, critical 
actions in the short term that can be taken to enhance the election 
environment and raise general levels of confidence.

  <bullet> Deployment of SADC police officers as an ``African solution 
        to an African problem'' to work with their ZRP counterparts 
        prior to, during, and after elections. Rules of engagement for 
        fellow SADC officers can ensure there is no untoward 
        interference, but they must be mandated to report to SADC 
        monitoring and observation structures.
  <bullet> Detail should also be provided of ZRP command structures, 
        including names and contact details of commanders and their 
        respective geographical responsibilities under the electoral 
        security plan.
  <bullet> A security sector code of conduct should be in place before 
        the elections, coupled with a public commitment made to this 
        code by the security force chiefs and all rank and file 
        members. This would be greatly enhanced if it was done in 
        response to an order from the President, as current Commander 
        in Chief. In addition, and in light of ongoing concerns about 
        the partisan role of the military, they, along with the Central 
        Intelligence Organisation (CIO) should be confined to barracks 
        during the campaigning period as a sign of good will and an 
        investment in building confidence amongst the general 
        population.
                               conclusion
    The uncontested constitutional referendum in March enabled 
Zimbabweans to participate in a voting process without fear of 
retribution. The pending parliamentary and Presidential balloting is 
another matter. SADC remains the point vehicle for pressing for 
conditions on the ground to allow for credible elections and a process 
with integrity, including adequate domestic and international 
monitoring of all aspects of the process. The U.S. should support those 
efforts.

    Senator Coons. Thank you, Mr. Schneider.
    Mr. Moss.

STATEMENT OF TODD MOSS, PH.D., VICE PRESIDENT FOR PROGRAMS AND 
  SENIOR FELLOW, CENTER FOR GLOBAL DEVELOPMENT, WASHINGTON, DC

    Mr. Moss. Thank you, Chairman Coons, Ranking Member Flake. 
Robert Mugabe, after 33 years in power, will soon be running 
for yet another term. This hearing is a timely opportunity to 
shape United States policy, not only because Zimbabwe is facing 
a critical moment, but also because I am increasingly concerned 
that our government may be sleepwalking down the wrong path.
    We are at serious risk of sending the wrong signals and 
damaging U.S. interests in the region. This danger is 
especially high while the Assistant Secretary position remains 
vacant.
    Let me start with three analytical points. First, I believe 
it is already far too late for a free and fair election in 
2013. The ZANU-PF intimidation machine has been running full 
steam for the past 5 years. Local party bosses know who the 
opposition sympathizers are, in some cases even going door to 
door and marking houses. The police have repeatedly raided 
civic groups. Even radios, the principal way most Zimbabweans 
get news, have been banned and confiscated in many rural areas. 
Imagine the chilling effect of banning radios in a rural area.
    As a result of the systematic campaign of fear already in 
place, we should not be surprised if the actual election day 
passes peaceably. We should thus severely discount the 
relevance of observers that just fly in and declare voting calm 
and orderly.
    Second, even if Mr. Mugabe somehow loses, ZANU-PF will not 
allow Morgan Tsvangirai to become President. We know this 
because it has already happened. In 2008 Mr. Mugabe lost the 
first round. While he was surprised at this defeat, he was 
prepared to step down, but the military convinced him to stay 
and promised him that they would ensure his victory in a second 
round, and indeed they did.
    Under the direction of senior army officers, party militias 
attacked the MDC's supporters and the nation's civil society 
networks. At least 80 people were killed, hundreds went 
missing, thousands were injured, and hundreds of thousands of 
Zimbabweans were driven from their homes.
    There is no reason whatsoever for us to believe that in 
2013 this will be any different. Mr. Mugabe will simply not 
step down if he loses. So if the outcome is already decided, 
then it cannot by definition be a competitive election.
    In fact, the election itself is not an expression of 
democratic will, nor a process for Zimbabwe to select a 
political leader. It is in reality a form of political theater, 
only grudgingly tolerated by Mr. Mugabe. If we focus on the 
minor details, the deep weeds of the electoral process, like 
the current wrestling over the election date or the length of 
the registration process, I fear we will miss this bigger 
picture.
    Third, Zimbabwe's economic collapse has been halted, but 
reports of a broad recovery are premature. The end of 
hyperinflation and the modest bounceback are welcome, but these 
are also the predictable result of dropping a worthless local 
currency and moving to the U.S. dollar. The Finance Minister, 
Tendai Biti, has done a very impressive job under grim 
conditions, but the foundation for full economic turnaround is 
still missing.
    Also missing are hundreds of millions of dollars in diamond 
revenues controlled by ZANU-PF and the military. Instead of 
paying for Zimbabwe's reconstruction, the country's diamonds 
are funding the repression machine.
    So what does this all mean for U.S. policy? I will quickly 
offer three suggestions. First, the United States should become 
more active and creative on Zimbabwe policy. Zimbabwe does not 
want to remain a pariah state, a fact that we should be able to 
leverage. This need not cost blood or treasure. It does mean 
working in a nuanced and resourceful manner with like-minded 
allies to find opportunities to increase political and economic 
freedom. When necessary, we should deploy the full capabilities 
of the U.S. Government, including and beyond the State 
Department.
    Second, we absolutely should not endorse an election whose 
outcome is already known, nor should we prematurely normalize 
relations. Engagement and flexibility does not mean 
appeasement. The absence of wide-scale violence is not the same 
as a credible election. Until the signs of true political 
reform are clear, we should keep in place our current travel 
and financial sanctions against those responsible for violence 
and political repression.
    Similarly, the United States should resist any premature 
efforts to clear Zimbabwe's arrears at the international 
financial institutions. Recall, if you will, that the Zimbabwe 
Democratic and Economic Recovery Act became U.S. law in 2001 
and was cosponsored by Senators Bill Frist, Jesse Helms, Joe 
Biden, Hillary Clinton, and Russ Feingold. The act's conditions 
for reengagement are still appropriate today. These include 
restoration of the rule of law, freedom of speech and 
association, and an end to violence and intimidation. I am 
worried that our government may be sending premature signals 
that these have been restored when they most certainly have 
not.
    Finally, the United States should prepare for real change 
in Zimbabwe. Despite my short-term pessimism, I am optimistic 
about Zimbabwe's long-term future and for building a fruitful 
partnership with the United States. We should be actively 
seeking dialogue with potential future leaders, planning for 
quick-reacting forms of recovery assistance, and finding ways 
of aiding democratic forces.
    To conclude, Zimbabwe has fallen off the U.S. foreign 
policy agenda just at the time that the rest of Africa is 
booming and becoming an important partner for the United 
States. If we are seen as accepting a sham election, it will 
damage America's reputation at just the time we should be 
standing on principle. We may have limited policy tools to 
influence events in Zimbabwe, but it is in our long-term 
interests to help encourage the country to turn away from the 
hatred and fear of the past and toward a new Zimbabwe based on 
openness, prosperity, and freedom.
    Thank you.
    [The prepared statement of Mr. Moss follows:]

                 Prepared Statement of Dr. Todd J. Moss

    Thank you, Chairman Coons, Ranking Member Flake, and other members 
of the subcommittee. I appreciate that the subcommittee is holding a 
hearing on the economic and political challenges in Zimbabwe. I proudly 
served in the State Department of the previous administration, but did 
not work directly on Zimbabwe policy. Nevertheless, I have been 
actively involved with the country for more than two decades and now 
lead the Center for Global Development's work on Zimbabwe.
    After 33 years in power, Robert Mugabe is running for yet another 
term. To put this in perspective, jump forward to the year 2041 and 
imagine that President Obama is still President, has deployed the FBI, 
CIA, and U.S. Marines to crush his domestic opponents, and is then 
running again for another term. Unthinkable? That's the situation in 
Zimbabwe today.
    This is therefore a timely opportunity to shape U.S. policy, not 
only because Zimbabwe is facing a critical juncture, but also because I 
am increasingly concerned our government may be sleepwalking down the 
wrong path. Before making recommendations for U.S. policy, let me make 
three analytical points.
    First, it is already far too late for a free and fair election in 
2013. The window for a truly competitive election reflecting the will 
of the people has long closed. The ZANU-PF machine of intimidation has 
been, over the past 4 years, methodically ensuring the outcome of the 
next election. Local party bosses are well aware of who might be 
sympathizers for the Movement for Democratic Change (MDC), including 
going door to door and marking houses. If the past is any guide, they 
also have contingency plans in place for deploying armed groups if 
necessary. The arrest and unlawful detention of human rights lawyer 
Beatrice Mtetwa in March was only the most well-known incident of 
government repression. Civic organizations, especially those involved 
in electoral education (e.g., the Zimbabwe Electoral Support Network) 
and victims' assistance (e.g., the Counseling Services Unit, The 
Zimbabwe Peace Project) have been especially targeted. A list of 
arrests and raids on civic groups over just the past 10 months, 
compiled by researchers at the Robert F. Kennedy Center for Justice and 
Human Rights (Appendix A), paints a chilling portrait of a government 
afraid of its own people and willing to take extraordinary efforts to 
suppress their views.\1\
    The Government of Zimbabwe has even taken the highly unusual step 
of confiscating all radios in many rural areas, where most of the 
population lives. Radios are the principal way most Zimbabweans get 
news--and yet they are banned. As a result of the systematic campaign 
of fear and intimidation that is already in place, we should not be 
surprised if the actual election day passes peaceably. Thus, we should 
severely discount the relevance of observers that fly in a few days 
prior and then declare voting is calm and mostly orderly. I would be 
surprised if it was otherwise.
    Second, even if Mr. Mugabe somehow loses, ZANU-PF will not allow 
Morgan Tsvangirai to become President. I am confident in this 
assessment because we have already seen how ZANU-PF responds when they 
lose. In the March 29, 2008, vote, Mr. Mugabe lost the first round. 
There are credible reports, including excellent Washington Post 
reporting (Appendix B), that Mr. Mugabe was surprised at his defeat but 
prepared to accept the will of the people and to step down. However, 
the military leadership, desperate to protect their insider privileges, 
convinced Mr. Mugabe that he should instead compete in a second round 
and that they would ensure his victory. Indeed they did. ZANU-PF 
militias, under the direction of senior army officers, attacked the 
MDC's supporters and civil society networks. By the time of the second 
round 3 months later, at least 80 people were dead, hundreds missing, 
thousands injured, and hundreds of thousands driven from their homes. 
The violence against ordinary citizens was so severe that Mr. 
Tsvangirai sought refuge in a foreign embassy and was forced to 
withdraw from the race to spare further death and destruction. There is 
no reason whatsoever to believe that 2013 will be any different. Mr. 
Mugabe will not step down if he loses again. Thus, if the outcome is 
already decided, then it cannot, by definition, be a free and fair 
election.
    Third, Zimbabwe's economic collapse has been halted but reports of 
a broad recovery are premature. It is true that hyperinflation and a 
worthless local currency are both gone, enabling some modest bounce 
back. This is the predictable result of dropping the Zimbabwe dollar 
and moving to a currency system based on the U.S. dollar. These are 
positive steps to be sure, and the Finance Minister Tendai Biti has 
done an impressive job managing the country's finances under grim 
conditions. Mr. Biti has also begun responsible first steps toward 
reengagement with the international financial institutions. But the 
foundation for a full economic turnaround--which requires restoration 
of private property rights, security of contracts, and protection of 
individual rights of association--are sorely missing.\2\ In the World 
Bank's Doing Business indicators, Zimbabwe is still ranked near the 
global bottom, at 172nd out of 185 countries. Most tellingly, the 
Zimbabwean professional and working classes have continued to vote with 
their feet by leaving the country in droves and staying abroad. (The 
millions of Zimbabwean citizens in South Africa and elsewhere abroad 
who are denied their right to vote is another factor that will sway the 
outcome.)
    Also missing from the recovery are the hundreds of millions of 
dollars in diamond revenues that should be in the Zimbabwean Treasury. 
According to credible reporting from groups like Partnership Africa 
Canada and Global Witness, Zimbabwe's diamonds are tightly controlled 
by a web of corrupt and secretive business networks linked to ZANU-PF 
and the country's military.\3\ Instead of paying for teachers or 
stocking health clinics, Zimbabwe's diamonds are funding the repression 
machine.
    What does this all mean for U.S. policy? I offer three suggestions.
    First, the United States should become more active and creative on 
Zimbabwe policy than has been the case for the past 4 years. If we hope 
to help shape events in that part of the world, we cannot continue to 
be passive bystanders. Neither can a superpower that believes in 
democracy wash its hands of a country just because the options are all 
challenging. Instead we should actively engage with our allies, with 
Zimbabwe's neighbors, and, when appropriate, with Zimbabwe's political 
and civic leaders. Zimbabwe does not want to remain a pariah state, a 
fact that we should leverage. This means working in a nuanced and 
resourceful manner to find opportunities to increase political and 
economic freedom for Zimbabweans by working with others that share our 
goals and, when necessary, deploying the full capabilities of the U.S. 
Government, including and beyond the State Department.
    One important caveat to emphasize is that we should not expect 
South Africa, the regional power, to be much help. Despite its own 
proud history of fighting oppression, the Government of South Africa 
has, for a variety of reasons, shown little willingness to support 
democratic forces in Zimbabwe and has instead too often been willing to 
look the other way when horrific abuses have taken place under its 
nose. After repeated attempts by American officials to try to sway 
South Africa, it should be clear that this is a losing strategy.
    Second, we should not endorse an election whose outcome is already 
known nor should we prematurely lower our guard on sanctions or aid. 
Engagement and flexibility does not mean appeasement. The 
administration should be wary of rash declarations of success and 
should view the 2013 Presidential election within the context of the 
broader environment for the free expression of political beliefs, not 
just a one-day exercise in political theater under the watchful eye of 
the security forces. The absence of wide scale violence is not the same 
as a credible election or a signal that it is time to normalize 
relations. We should, until the signs of true political reform are 
clear, keep in place our current travel and financial sanctions against 
those responsible for violence and political repression. Those who 
argue for sanctions to be lifted now have not yet made a convincing 
case for how removal would credibly help the democratic process. 
Similarly, until we have confidence that change is real, the U.S. 
should resist any premature efforts to clear Zimbabwe's arrears at the 
World Bank and other international financial institutions, which would 
be a step toward significant new lending to the country.\4\ The 
conditions for reengagement outlined in the Zimbabwe Democracy and 
Economic Recovery Act are still apt. Recall if you will that ZDERA 
became U.S. law in 2001 and was cosponsored by Senators Bill Frist, 
Jesse Helms, Joe Biden, Hillary Clinton, and Russ Feingold.
    Finally, the U.S. should prepare for real change. Even though I am 
pessimistic about the chances of immediate political change, I am 
optimistic about Zimbabwe's long-term future. Zimbabwe's elderly 
political class cannot be in power forever. A new generation, including 
within ZANU-PF, longs for Zimbabwe to return to the community of 
nations and finally reap the bounty of its natural wealth and abundant 
human capital. The U.S. should be actively seeking dialogue with 
potential future leaders, planning for quick-reacting forms of recovery 
assistance, and finding ways of aiding democratic forces.\5\
    Zimbabwe has fallen off the U.S. foreign policy agenda just as the 
rest of Africa is booming economically and becoming an important 
partner for the United States. The southern African region cannot 
thrive while Zimbabwe remains an outlier. We may have few good options 
and limited policy tools, but it is still in the long-term interests of 
the United States to help encourage Zimbabwe to turn away from the 
hatred and fear of the past and toward a new Zimbabwe based on 
openness, prosperity, and freedom.

----------------
End Notes

    \1\ See also ``Pattern of Suppression in Zimbabwe a Concern for RFK 
Center,'' Robert F. Kennedy Center for Justice and Human Rights, April 
2, 2013.
    \2\ Michael Clemens and Todd Moss, ``Costs and Causes of Zimbabwe's 
Crisis,'' CGD Brief, 2005.
    \3\ ``Reap What You Sow: Greed and Corruption in Zimbabwe's Marange 
Diamond Fields,'' Partnership Africa Canada, November 2012; 
``Zimbabwe's diamond sector and EU restrictive measures,'' Global 
Witness, January 2013; ``Financing a Parallel Government? The 
involvement of the secret police and military in Zimbabwe's diamond, 
cotton and property sectors,'' Global Witness, June 2012.
    \4\ Benjamin Leo and Todd Moss, ``Moving Mugabe's Mountain: 
Zimbabwe's Path to Arrears Clearance and Debt Relief,'' CGD Working 
Paper 190, 2009.
    \5\ Todd Moss and Stewart Patrick, ``The Day After Comrade Bob: 
Applying Post-Conflict Reconstruction Lessons to Zimbabwe,'' CGD 
Working Paper 72, 2005.

[Editor's note.--Appendixes A and B mentioned above can be found in the 
``Additional Material Submitted for the Record'' section at the end of 
the hearing.]

    Senator Coons. Well, thank you, Mr. Moss, Mr. Schneider, 
Mr. Mahvinga.
    Mr. Moss, if I might, you offer in some ways the most 
bracing and broad summary of what I think is a common theme 
across all five witnesses today, which is grave concern that 
should elections be held on an accelerated timeline there is 
virtually no chance that they will be peaceful, free, fair, 
effective, respectable, certifiable.
    You urge that the United States become more active and 
creative on Zimbabwe policy, yet also recognize we have 
relatively limited policy tools. I would agree with your 
assertion that we should not be lifting sanctions simply in 
response to a peaceful election, but should instead insist on 
the whole menu of respect for private property, for human 
rights, for open civil society, for free media, as well as the 
precondition of being a free and fair election.
    How would you suggest we go about being more innovative, 
more active, more creative on Zimbabwe policy? What else would 
you urge us to do?
    Mr. Moss. Thank you for the question. I think it is not 
just a matter of engaging or not engaging, lifting sanctions or 
not lifting sanctions. The United States can be a very creative 
and powerful actor. It can be a player if we are actively 
engaged, and it can be a player if there is direction given to 
the administration from above or from Congress to try to 
achieve a particular outcome.
    What I fear I have seen, particularly over the last 4 
years, is a stepping back of the United States, where they are 
frustrated that sanctions have not led to the outcome that we 
may desire and that our policy tools are limited, so we become 
passive actors and in a sense we outsource our foreign policy 
to SADC or sometimes to the South Africans, which may have very 
different outcomes in mind. And while on paper we may share 
some of the very same interests, we do not always behave in the 
same manner.
    So I believe that the United States, through various 
components of the U.S. Government, if it was given clear 
direction on what the United States was trying to achieve, 
could come up with much more creative strategies to try to, for 
instance, peel away part of ZANU-PF with which we will have to 
work with in the future, and try to further isolate parts of 
ZANU-PF with which we should not work with in the future. I 
think that kind of nudge could make an important difference, 
not just in Zimbabwe, but internationally, where we have seen a 
general stepping back, including among our European and other 
allies, which have also gotten frustrated with Zimbabwe.
    Senator Coons. Thank you.
    Mr. Schneider, ICG's recent report also indicates MDC-T and 
ZANU-PF may be internally fragmented. This is not unusual for 
long-standing contestants for political parties that are 
created more around an individual than around a policy agenda, 
but do you see this as a sign of the emergence of more 
pragmatic or reformist leaders within these groups, or is it 
just a sign of ongoing competition for the spoils of power?
    Mr. Schneider. Within some of those factions, clearly there 
is a pragmatic effort to move forward. I think they recognize 
that Zimbabwe is sort of poised on the edge of a cliff and it 
is either going to go over that cliff and see further violence, 
further disaster, or move away from it and hopefully build a 
different kind of future.
    I will say that right now, at least within ZANU-PF, it is 
the minority of those who have expressed those kinds of views, 
but I do think we should try to find ways to work with them as 
well as those within MDCT that are ready to respect the 
constitution, respect the rule of law, and abide by the clear 
conditions that are required in order to have a free, fair, 
election and then to move forward on the reforms that remain to 
be achieved.
    There are a series of reforms on removing the repressive 
provisions on the media law, on security, that have not taken 
place. Those need to take place. There needs to be far more 
done with respect to ending impunity for violations of the law, 
violations of human rights.
    I will say one thing. The constitution that was adopted was 
adopted as a result of compromise between the two major 
political parties and with the support generally of civil 
society. That provided for the transitional election, not July 
31, but within 4 months and that, as we have heard, by the end 
of October. And to the degree that we can press--and that is 
what we should be focused on right now: How do we move all of 
our diplomatic resources along with SADC and the AU in trying 
to bring about the conditions, and particularly control over 
the security forces, the conditions to permit that election to 
take place and the transition to occur?
    It is clear, election day is not the crucial issue. The 
crucial issue is what happens before and after and ensuring 
respect for the outcome, particularly if it is an opposition 
outcome, is a critical part of the process.
    Senator Coons. Mr. Schneider, do you think it is still 
possible for there to be elections within this calendar year if 
pushed back by several months, if all those preconditions are 
met? The referendum that approved the constitution, was broadly 
welcomed as being peaceful, with a high participation rate. But 
as you comment, it was because there was agreement between the 
political parties on the outcome.
    Mr. Moss describes the likely outcome here as a, I think, 
barely tolerated political charade if it remains on the 
compressed schedule, but raises some question as to whether 
there can be a credible election in 2013 at all. Do you think 
it is still possible if SADC, AU, and other players like the 
United States align their resources, and if wings of both key 
political parties embrace the possibility of a positive path 
forward here?
    Mr. Schneider. The answer is one hopes so. One cannot be 
confident, but I think that you have a much better chance of 
having that outcome if everybody is focused on those reforms 
and clearly sets them out as, these are the redlines, these are 
the benchmarks. Without these, there cannot be anything that is 
viewed as a credible election, even if it is peaceful on 
election day. And we still do not see that in place, and that 
is what we have raised in all of our reporting.
    Senator Coons. Mr. Mahvinga, if I might, for all three of 
you and across many different sources, a key concern is 
security sector reform, the politicization of the police and 
the military and the lack of confidence that they will remain 
neutral in the election. What players inside or outside of 
Zimbabwe, in your view, have the credibility or resolve to 
successfully press for security sector reform, and is the 
security sector challenge, including the ongoing politicization 
of the security forces, really one of leadership or is it 
deeply entrenched in the security forces at all levels?
    Mr. Mahvinga. Thank you, Mr. Chairman. For Zimbabwe, the 
major challenge is one of the leadership of the security 
forces, which is extremely partisan and highly politicized. So 
focus should really be on ensuring that the leadership are 
reined in to conduct themselves in a politically neutral way.
    Within Zimbabwe, President Mugabe as the Commander in Chief 
of the defense forces has that political power to rein the 
security forces in. For the U.S. Government, the best way would 
be to work through and support SADC initiatives. South Africa 
as the facilitator for Zimbabwe is best placed within the 
framework of the roadmap to elections to put forward a code of 
conduct for the security forces to comply with and to ensure 
that there are mechanisms to enforce it. The challenge has been 
a failure to enforce the laws.
    The new constitution that was signed into law last month 
has a provision in article 208 that all security force should 
be nonpartisan, politically neutral, and should not align 
themselves with any one political party. So it is just a matter 
of ensuring that there are mechanisms to implement this article 
that already is agreed to by all the political parties.
    Senator Coons. Thank you, Mr. Mahvinga.
    Senator Flake.
    Senator Flake. Thank you.
    Let me follow up on a question Chairman Coons asked. Mr. 
Schneider, you seemed to indicate that you believe that free 
and fair elections could be held still this year if it is put 
off a bit. Mr. Moss, you say not this year. Mr. Moss, do you 
want to explain why that is the case, why a couple more months 
would not do it?
    Mr. Moss. Yes, thank you. I think we want to differentiate 
between the mechanics and the legal provisions for holding an 
election. Clearly you want to try to follow--you want to follow 
the letter of the law to the extent you can. You obviously want 
to have the ballots where they are supposed to be, so that the 
mechanics operate as they should. Actually, USAID has an 
extremely long and proud history of supporting these technical 
preparations for elections, including in the 2008 elections in 
Zimbabwe. Support there was essential to getting to that first 
round loss for ZANU-PF and actually seeing what had happened.
    Senator Flake. Just one second. On that first round loss, 
then, your feeling was the technical aspects there, were there 
sufficient ballots distributed in the rural areas? All of the 
technical things were there for the first election?
    Mr. Moss. To the best of my knowledge, yes. But we want to 
separate the mechanics of an election from the environment for 
people to use that election to express their political 
preferences. Here we have to go back even before 2008, but 
certainly 2008 was a watershed area where towns, villages, 
regions that had voted in the first round election for the 
opposition provided a map for the security forces to know where 
to target. They then executed this plan of intimidation to 
ensure that this next round and no future elections would ever 
be lost to the ruling party.
    That system, intense intimidation and organized violence, 
including I have no doubt in my mind that there are contingency 
plans in place for armed groups to be deployed if necessary--
and people know that. Once you have had your house burned down, 
you have had a family member disappear, maybe you have had a 
family member chased out of the country, and you have been told 
that, we know how you vote, you are going to think twice before 
expressing your political--and they have taken your radio away. 
You are going to think twice about voting for who you really 
want to vote for.
    I do not believe in that environment, even if it is 
technically capable, it is technically correct, that you are 
going to see the true expression of the Zimbabwean people.
    Senator Flake. You have outlined in your written testimony 
a series of abuses that have occurred just over the past little 
while. Is it your feeling that that is laying the groundwork, 
obviously with the intimidation factor, but that they are 
readying a plan to make sure that they do not go through what 
they had to go through last time? Is that an accurate 
assessment?
    Mr. Moss. That is very accurate. You know, I do not think 
that it is an accident that the groups involved in electoral 
education have been specifically targeted. In my written 
testimony I submitted a list from the Robert F. Kennedy Center 
for Human Rights and Justice and I think that fits into a 
larger pattern of the security forces working closely with the 
ruling party to ensure the electoral outcome that they desire.
    Senator Flake. Mr. Schneider, you mentioned that it would 
be useful if SADC forces were embedded with Zimbabwean security 
forces. How likely is it that ZANU-PF would allow that?
    Mr. Schneider. It is an interesting question. SADC has done 
this in other countries and that is a kind of--when you read 
what they are asking for in terms of deployment with respect to 
security, that would be a way to carry out what they are saying 
needs to be done. That is, observation of the security forces 
by SADC monitors. We urge that that be done and at least be 
proposed as a way to try and avoid--first, reducing the 
politics of fear; and second, actually avoiding, hopefully, 
violence during the electoral and post-electoral process.
    Let me just say one other thing. I have always believed 
that the United States and others on the outside should listen 
very carefully to people on the inside. So it does seem to me 
when trying to reach judgment whether or not it is worthwhile 
taking the risk of going forward with elections, we need to be 
sure that we are listening to civil society groups inside 
Zimbabwe, the church, and other nongovernmental organizations, 
as well as the opposition political parties, the ones who are 
going to put their lives on the line to be candidates, to run 
for office, to campaign, to go out and vote. So we should be 
listening to them in coming to a judgment about whether or not 
we should support the process.
    The other point I would make is that one of the things that 
does give us concern as well, which I hope would be reversed, 
is the government rejected the permission for the U.N. 
elections needs assessment mission to enter the country. U.N. 
elections is part of the technical operations that essentially 
say, this is what you need in order to carry out the elections, 
this is what it costs, et cetera. It is something that still 
needs to be done and I think would give confidence to others 
that at least if these standards are met at least the technical 
side of things would be covered.
    But I agree with Tom in the sense that the fundamental 
issue is are there going to be pressures, political and 
otherwise, so that the security forces feel that they cannot do 
what they did in 2008.
    Senator Flake. Mr. Mahvinga, how significant is it that the 
AU has stepped forward now and will monitor? Is that likely to 
have more of an impact on the ZANU-PF's thinking than SADC or 
other international organizations?
    Mr. Mahvinga. There are challenges with the statement from 
the African Union on deploying long-term observers to Zimbabwe. 
The first is that it appears to endorse the idea that elections 
should happen by end of July. So that is likely to strengthen 
ZANU-PF's resolve to move ahead because the AU is saying now we 
are moving in to observe. We have wanted to a see a situation 
where there is a clear position to insist on the reforms that 
must take place ahead of elections, which the AU simply has not 
addressed.
    It also appears to be bringing tension between SADC and the 
AU, because the SADC leadership has said there is need to 
extend the date for elections and to look at the minimum 
conditions for free and fair elections, particularly the role 
of the security forces, before, during, and after the 
elections.
    Senator Flake. You sound as if the AU is almost acting as 
an enabler for this. Is that your assessment? Mr. Moss, you 
seem to be nodding your head there.
    Mr. Moss. I think there is certainly a risk there, 
especially if we are focused on the technical observation of 
the conduct of the elections rather than the broader political 
environment. I do not know if they are accurate, but certainly 
comments by the AU chair this morning would seem to say that 
the problems over the electoral schedule were up to Zimbabweans 
to resolve, the AU was not going to get involved, does not 
suggest to me--if they are accurate--does not suggest to me a 
very active role for the AU.
    The AU, I should add, has come a very, very long way in 
standing up against coups and standing on principle against 
coups. They have a much tougher time standing up to a sitting 
head of state that may be behaving in a way worse than 
coupmakers.
    Senator Flake. Thank you, Mr. Chairman.
    Senator Coons. If you have any closing questions, feel free 
to ask them now.
    Senator Flake. No, thank you.
    Senator Coons. If I might, first Mr. Moss. The question 
that I asked previously of Ambassador Yamamoto about diamond 
revenues: What measures do you believe can and should be taken 
to ensure that diamond revenues are not being diverted and 
misused? I believe in your testimony you suggest that you 
believe this is in part financing the ZANU-PF intimidation 
machine. Should the United States press for Zimbabwe's 
expulsion from the KP, from the Kimberley Process, seek to 
engage it in the EITI, the Extractive Industries Transparency 
Initiative? Or is there some other credible, creative path 
forward for ensuring transparency in this vital sector that is 
likely generating hundreds of millions of dollars that are 
currently unaccounted for?
    Mr. Moss. Yes, thank you. There is some very good research 
on the Zimbabwean diamond sector from Partnership Africa, 
Canada, and from Global Witness that are both footnoted in my 
written testimony. I would urge anyone looking for details to 
turn there for evidence of the problem.
    What is clearly happening is that diamonds are being taken 
directly out of the country. They are controlled by a secret 
network of businesses, likely linked to the military forces. 
What we do know is that the revenues from those diamonds are 
for the most part not going into the Treasury where they 
belong. I think it is reasonable to assume that if it is going 
to the military then that is also being used as a parallel, 
almost a parallel government to run the security forces and 
intelligence services.
    The Kimberley Process itself is not set up to deal with 
human rights abuses or to deal with theft of mineral revenues. 
It was set up principally to try to squeeze so-called conflict 
diamonds out of the global supply chain. It did a pretty good 
job at that. I am sympathetic to those within the KP that think 
that this is a bridge too far and that the KP is not set up to 
deal with this problem.
    EITI would be helpful, but EITI is entirely a voluntary 
organization. So the Government of Zimbabwe would have to 
volunteer to release information on where its diamond revenues 
are going. I think that is extremely unlikely.
    I do think that the United States could use its diplomatic 
and other influence, particularly working with our like-minded 
allies, to try to squeeze the diamond centers that are 
purchasing these diamonds and enabling the violence and 
repression in Zimbabwe quite directly. But I do not have a 
simple off-the-shelf answer for--and there's no simple 
mechanism that exists now to do that.
    Senator Coons. You mentioned, in response to a question 
from Senator Flake and in your previous testimony, some 
skepticism about just how far South Africa is willing to go in 
order to press for fundamental reform in order to ensure not 
just a peaceful election, but a truly free and fair and open 
election. What other regional partners, what other regional 
allies, what other leaders in SADC, might we be looking to to 
help insist that Zimbabwe upholds the SADC principles in its 
conduct of the upcoming election?
    Mr. Moss. There are other members within SADC which I think 
are more willing to be forward-leaning on Zimbabwe. 
Unfortunately, they are much smaller and less influential than 
South Africa. Some of the other bigger players have very long 
historical links with ZANU-PF and are much less likely to try 
to influence them.
    I think it was a terrible accident of history that 
President Mwanawasa, who had been leading the charge before his 
death, the SADC pressure sort of evaporated after his death.
    What is striking to me when I look at the entire African 
Continent is that you would think that southern Africa should 
be the region driving the continent politically, economically, 
diplomatically, and it is just not the case. East and West 
Africa are much further ahead in democratic reforms, in pushing 
for sound economic policies. I actually think we could get more 
leverage in working with countries like Ghana, like Nigeria, 
like Tanzania, to try to encourage a broader African stand 
against what I think everybody recognizes is a disaster in 
Zimbabwe. And everyone is just sort of waiting for the 
President to die to move to that next phase.
    But I think that a lot of the region would like to try to 
push it and not just sit back and wait for that event.
    Senator Coons. My last question for you, if I might. On 
this panel you have sort of pressed hard on a view that we 
should not simply wait, we should not simply accept peaceful 
elections; we should be using all the levers available to us. 
Others have suggested it is important for us to convey an 
openness to reducing sanctions on Zimbabwe should there be 
progress.
    Would you suggest strengthening or tightening sanctions? 
Are there tools that the United States unilaterally can deploy 
in the event that the very bad outcome you are predicting comes 
to pass?
    Mr. Moss. Yes. I think that we can do both. We are 
absolutely correct to continually review and reduce or take 
people off the sanctions list when they are no longer becoming 
a problem, and we should make it very clear that we are willing 
to do that when there are appropriate actions taken on the 
other side.
    At the same time, there are areas where the United States 
could be looking to further squeeze and tighten those 
recalcitrant elements within the government, particularly if 
there is a bad election or a violence-driven election result 
that either rejects an opposition victory or enforces a 
noncredible win by certain parties.
    One example could be preemptive contract sanctions, which 
is a tool that exists out there. It has not been deployed yet. 
What that would mean is that the United States, working with 
the Treasury, working with some of our allies in Europe, could 
make, if Zimbabwe blows up, could make a preemptive statement 
that future loans or contracts signed by an illegitimate 
Zimbabwe Government would not be enforceable in United States 
courts. That could have a chilling effect not only on United 
States and European foreign investment, obviously, but could 
also have a chilling effect on investment from places like 
Russia and China.
    Senator Coons. Interesting.
    If I could, Mr. Schneider, the International Crisis Group's 
recent report concludes that, if I read this right, it may be 
the best way forward to prepare for a plan for further power-
sharing. Is ICG suggesting a managed democracy approach is 
better than a truly failed outcome, than a military rejection 
of an electoral outcome that is suspect at best? And does this 
put at risk short-circuiting the popular will of Zimbabweans?
    Mr. Schneider. What we were essentially saying is if there 
is, in fact, no movement toward setting the ground for an 
adequate electoral process, that you have to think what then do 
you do. It is in that context, an extension of the transition 
government in some way. But the answer is, at least at this 
stage, still to focus on the reforms required so that there are 
conditions for, at the very least, a peaceful, credible 
election, and then as much pressure as is possible on the 
security forces to accept the outcome where it goes against the 
ZANU-PF.
    I should make one other point. The diamonds issue is part 
of the security problem in Zimbabwe. The information that we 
had in one of our reports a while ago indicated that Zimbabwe 
Defense Industries, which is an army-owned company, holds a 40-
percent stake in the Anjin diamond mine operation. The Minister 
of Finance at the time, Tendai Biti, noted that, where the 
estimate was about $500 million in revenues from diamonds, that 
the state Treasury received only about 10 percent.
    So there is clearly mechanisms there and an interest on the 
part of the security forces not to see the situation changed in 
this regard, and there have to be efforts made to put 
additional pressure on where they act in a way that violates 
the constitution and prevents a democratic expression of the 
voters from being realized.
    Senator Coons. Mr. Mahvinga, if I might, Ambassador Andrew 
Young recently met with President Mugabe at the suggestion of 
the administration and was accompanied by the U.S. Ambassador. 
The U.S. Ambassador has also accompanied Jesse Jackson to a 
meeting with President Mugabe. How is this engagement viewed by 
Zimbabwean civil society? What have you heard in your recent 
visits in terms of how the United States outreach or recent 
efforts has been received?
    Mr. Mahvinga. There has been concern that perhaps that kind 
of engagement is premature, given the conditions on the ground, 
and that there is really need for the U.S. Government now to be 
supporting processes toward credible elections that lead to a 
peaceful transfer to the government-elect, and that really 
focuses and supports to civil society groups at two levels, the 
first level being financial support for their activities, 
election activities within the country, but also increasing 
pressure through SADC and other players to ensure that there is 
no harassment and intimidation and the beatings that we have 
been witnessing in the recent months of civil society groups.
    So there is a real concern that perhaps the U.S. Government 
should closely look at what is happening on the ground, closely 
look at the whole of the security forces and ensure that its 
action position toward Zimbabwe is in response to clear 
improvements on the ground and not just incentives that are not 
related to progress and reforms achieved.
    Senator Coons. Thank you, Mr. Mahvinga.
    Senator Flake, did you have any further questions?
    Senator Flake. No, thank you.
    Senator Coons. Let me, if I might, thank you, Mr. Moss, Mr. 
Schneider, Mr. Mahvinga. We will be consulting afterward. 
Obviously, President Obama is about to take his first trip to 
the region with an impending trip to South Africa. I think 
there is still the possibility of progress in security sector 
reform, in electoral reform, and with some significant changes 
it is still possible for there to be credible, free, and fair 
elections later this year.
    But we are clearly at a tipping point. All five of our 
witnesses today have drawn in sharp terms the grave concerns 
that the United States should have and the hesitancy we should 
have toward lifting any sanctions prematurely and the 
redoubling of effort that is required with our regional 
partners and our diplomatic efforts to ensure that we do not 
lose this opportunity for progress in Zimbabwe.
    So we will leave the record open for a week for other 
members of the committee who may have wanted to be with us but 
were at another event that was happening at the same time. I 
want to thank all the members of our second panel and all of 
our witnesses today for your engagement and for your 
determination, for your insight.
    With that, this hearing is adjourned.
    [Whereupon, at 11:43 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Two Articles Submitted by Todd Moss as Attachments to 
                         His Prepared Statement

                               APPENDIX A

    Arrests & Raids of Civic Groups in Zimbabwe (Aug. 2012-May 2013)

     Source: Robert F. Kennedy Center for Justice and Human Rights

  <bullet> On April 23, Advocacy Officer Trevor Murai, with Student's 
        Solidarity Trust, was arrested and detained after making a 
        presentation on elections during a workshop organized by the 
        Christian Alliance. Under the amended Electoral Act of 2012, 
        ``voter education,'' strictly understood, can only proceed 
        under the authority of the Zimbabwe Electoral Commission (ZEC), 
        a body that is staffed by President Mugabe and ZANU-PF 
        loyalists.
  <bullet> Beatrice Mtetwa, Zimbabwe's most prominent human rights 
        lawyer--and founding board member of Zimbabwe Lawyer's for 
        Human Rights (ZLHR)--was arrested on Sunday, March 17, for 
        allegedly ``obstructing'' the police as they raided an office 
        of the Movement for Democratic Change (MDC) without a warrant. 
        Beatrice was transferred to the notorious Rhodesville Prison in 
        Harare, kept in solitary confinement, and consistently denied 
        access to family members despite a court ruling that ordered 
        her release. African, regional, and international human rights 
        groups denounced the ``alarming'' and ``unlawful'' arrest.

      <all>  State prosecutors during the week of April 8 served 
            Mtetwa's attorneys with the new allegations together with 
            court papers to prepare for her trial, which has been set 
            for the May 27-31 at the Harare Magistrates Court. Mtetwa 
            faces 20 allegations by the State in its criminal case 
            against her in what has been described as a ``desperate act 
            of ``embellishment.''

  <bullet> Radio Dialogue, a popular community radio station in 
        Bulawayo, was raided by police and officers from the Central 
        Intelligence Organization (CIO) on March 1. Police allegedly 
        confiscated 180 shortwave radios and later broke into the 
        director's personal residence looking for similar devices. The 
        director, Zenzele Ndbele was interrogated by police for several 
        hours, later released, and asked to appear before a magistrate 
        the following Monday. In another report, police allegedly went 
        door to door in Gandanzara, Ward 23 of Makoni South in search 
        of radios. The ``ban'' on radios was announced on February 19 
        by Assistant Police Commissioner Charity Charamba, who claimed 
        that the radios would be used to ``communicate hate speech'' 
        ahead of the constitutional referendum and elections.
  <bullet> On Tuesday, February 19, the headquarters of the Zimbabwe 
        Electoral Support Network (ZESN) were raided by police, 
        breaking down the organization's main security gate in the 
        process. During the same day, the ZESN regional office in 
        Masvingo was also broken into by unknown individuals, but 
        largely believed to be the work of the police and related 
        security forces. Much like the February 11 raid of the ZPP 
        offices, police came armed with a warrant in search of 
        ``subversive material.'' On February 21, the ZESN Masvingo 
        offices were broken into again; their security guard reported 
        that armed persons ``entered the premises and broke a window, 
        taking the field officer's desk drawers which included over 800 
        T-shirts, power adapters, and a blackberry phone.
  <bullet> On Monday, February 11, plain-clothed police officers raided 
        the Hillside offices of the Zimbabwe Peace Project (ZPP), which 
        documents instances of police misconduct, human rights abuses, 
        and political violence across the country. Police claimed to 
        have a warrant for ``illegal entry of goods, persons or 
        communications equipment.'' According to several reports, 
        police confiscated ZPP's violence incidence reports, as well as 
        upwards of 60 phones and 60 wind-up radios that are frequently 
        used by ZPP staff during grassroots outreach activities. Police 
        returned again that night, demanding entry into the director's 
        office. ZPP is led by Jestina Mukoko, a former newscaster and 
        prominent human rights activist who, in December 2008, was 
        abducted, tortured, and held incommunicado for nearly a month.

      <all>  The police vendetta against Jestina Mukoko escalated in 
            early March. The national police commissioner, Augustine 
            Chihuri, stated on national television his intent to detain 
            Mukoko and requested the public's help in ``tracking her 
            down.'' Mukoko presented herself before the state 
            authorities on Friday, March 8, where she was formally 
            charged with ``running an unregistered organization,'' 
            ``smuggling radio sets and mobile phones,'' and 
            ``broadcasting without a license.''

  <bullet> Also on February 11, police raided the offices of the 
        Community Tolerance, Reconciliation, and Development Group 
        (COTRAD) and the National Association of Nongovernmental 
        Organizations (NANGO), one the largest civil society coalition 
        groups in Zimbabwe. Two people were reportedly arrested during 
        these raids.
  <bullet> On February 6, 2013, police once again raided the Bulawayo 
        offices of the 
        National Youth Development Trust (NYDT) on the grounds that the 
        group was in possession of ``subversive material'' and for 
        allegedly ``conducting illegal voter registration activities.'' 
        The raid came two days after two other members from NYDT were 
        arrested in Lupane after being found in possession of voter 
        registration receipts. The police initially detained 40 people 
        affiliated with NYDT, but were later released.

      <all>  On April 10, 2013, three NYDT members were arrested in 
            Bulawayo for mobilizing residents in Pumula to register as 
            voters. NYDT was implementing a plan whereby the urged 
            residents with Econet phone lines to register using their 
            SIM card receipts, which contains proof of where they 
            reside.

  <bullet> On January 14, 2013, Okay Machisa, director of the Zimbabwe 
        Human Rights Association (ZimRights) was arrested and charged 
        with conspiracy to commit [voter registration] fraud, forgery, 
        and publishing falsehoods. This arrest followed the December 
        2012 arrest of another high-ranking ZimRights employee, Leo 
        Chamahwinya, also for allegedly conducting ``illegal voter 
        registration'' activities. Three other individuals who are not 
        ZimRights employees have been implicated in the case as well, 
        and have been repeatedly denied bail and access to lawyers.
  <bullet> In December, two officials from the Zimbabwe Electoral 
        Support Network (ZESN) were detained for organizing an 
        ``unsanctioned public meeting'' on International Human Rights 
        Day. The same afternoon, two leaders of the Zimbabwe Congress 
        of Trade Unions (ZCTU), the largest grouping of trade union 
        activists in the country, were briefly arrested in Bulawayo as 
        they attempted to march in the city center.
  <bullet> Several employees from the Counseling Services Unit (CSU)--a 
        nonprofit organization that provides support to victims of 
        torture and political violence--were arrested and illegally 
        detained in November because CSU was allegedly in possession of 
        ``offensive and subversive material.'' The three individuals 
        were eventually charged with causing ``malicious damage to 
        property'' in contravention of Section 140 of the Criminal Law 
        (Codification and Reform) Act, 4 days after their arrest.
  <bullet> In October 2012, Nkosilathi Moyo, director of the Zimbabwe 
        Organization for Youth in Politics (ZOYP), was convicted under 
        POSA for organizing a civic education workshop without getting 
        ``permission'' from the police. Police disrupted the workshop 
        and arrested Nkosilathi, along with Maureen Gombakomba and 
        Beloved Chiweshe from the Crisis in Zimbabwe Coalition. The 
        Crisis officials were cleared and released the same day but 
        Moyo was detained, charged, and ultimately found guilty by a 
        Kwekwe magistrate. He received a 12-month jail sentence. Six 
        months were suspended with a $500 fine, on condition that he 
        not commit the same crime again for the next 5 years.
  <bullet> In September, police arrested 10 members of Women of 
        Zimbabwe Arise (WOZA) during a peaceful protest and again 
        during a November 13 altercation during which police officers 
        verbally referenced the Gukurahundi massacres and ordered WOZA 
        members to not speak in their native Ndebele language. National 
        Coordinator Jenni Williams and Programs Coordinator Magodonga 
        Mahlangu were arrested and later released without charge. On 
        December 11, upwards of 80 WOZA members were again arrested, 
        physically assaulted, and detained at Bulawayo Central police 
        station for staging a peaceful protest about the deteriorating 
        water situation in the city. Most recently, during a peaceful 
        protest on February 13, police assaulted and arrested nine WOZA 
        members, including Jenni Williams. WOZA members filed an 
        official complaint due to the harsh treatment they received, 
        and all members were later released without charge.
  <bullet> A life skills workshop organized by the National Youth 
        Development Trust (NYDT) was barred from taking place in 
        September without legitimate reason from the local police, the 
        second such instance in less than a month when an event was 
        illegally dispersed. On both occasions, NYDT employees were 
        detained, questioned, and later harassed by local authorities.
  <bullet> On September 28, the president of the Zimbabwe National 
        Students Union (ZINASU) was arrested, along with three 
        colleagues, for organizing and an ``illegal demonstration.'' 
        The four individuals were denied access to food, lawyers, and 
        their respective family members for extended periods of time.
  <bullet> In August, the headquarters of the Gay and Lesbian Alliance 
        of Zimbabwe (GALZ) was ransacked on multiple occasions, during 
        which visibly drunk riot police assaulted GALZ employees and 
        illegally seized office materials. Authorities later attempted 
        to shut down GALZ operations altogether, charging a co-
        chairperson with running an ``unregistered'' organization, the 
        same rationale used to arrest and detain the director of the 
        Zimbabwe Human Rights NGO Forum the previous month.
                                 ______
                                 

                               APPENDIX B

                [From the Washington Post, July 5, 2008]

Inside Mugabe's Violent Crackdown Notes, Witnesses Detail How Campaign 
              Was Conceived and Executed by Leader, Aides

                           (By Craig Timberg)
    HARARE, Zimbabwe.--President Robert Mugabe summoned his top 
security officials to a government training center near his rural home 
in central Zimbabwe on the afternoon of March 30. In a voice barely 
audible at first, he informed the leaders of the state security 
apparatus that had enforced his rule for 28 years that he had lost the 
presidential vote held the previous day.
    Then Mugabe told the gathering he planned to give up power in a 
televised speech to the nation the next day, according to the written 
notes of one participant that were corroborated by two other people 
with direct knowledge of the meeting.
    But Zimbabwe's military chief, Gen. Constantine Chiwenga, responded 
that the choice was not Mugabe's alone to make. According to two 
firsthand accounts of the meeting, Chiwenga told Mugabe his military 
would take control of the country to keep him in office or the 
president could contest a runoff election, directed in the field by 
senior army officers supervising a military-style campaign against the 
opposition.
    Mugabe, the only leader this country has known since its break from 
white rule nearly three decades ago, agreed to remain in the race and 
rely on the army to ensure his victory. During an April 8 military 
planning meeting, according to written notes and the accounts of 
participants, the plan was given a code name: CIBD. The acronym, which 
proved apt in the fevered campaign that unfolded over the following 
weeks, stood for: Coercion. Intimidation. Beating. Displacement.
    In the three months between the March 29 vote and the June 27 
runoff election, ruling-party militias under the guidance of 200 senior 
army officers battered the Movement for Democratic Change, bringing the 
opposition party's network of activists to the verge of oblivion. By 
election day, more than 80 opposition supporters were dead, hundreds 
were missing, thousands were injured and hundreds of thousands were 
homeless. Morgan Tsvangirai, the party's leader, dropped out of the 
contest and took refuge in the Dutch Embassy.
    This account reveals previously undisclosed details of the strategy 
behind the campaign as it was conceived and executed by Mugabe and his 
top advisers, who from that first meeting through the final vote 
appeared to hold decisive influence over the president.
    The Washington Post was given access to the written record by a 
participant of several private meetings attended by Mugabe in the 
period between the first round of voting and the runoff election. The 
notes were corroborated by witnesses to the internal debates. Many of 
the people interviewed, including members of Mugabe's inner circle, 
spoke on the condition of anonymity for fear of government retribution. 
Much of the reporting for this article was conducted by a Zimbabwean 
reporter for The Post whose name is being withheld for security 
reasons.
    What emerges from these accounts is a ruling inner circle that 
debated only in passing the consequences of the political violence on 
the country and on international opinion. Mugabe and his advisers also 
showed little concern in these meetings for the most basic rules of 
democracy that have taken hold in some other African nations born from 
anti-colonial independence movements.
    Mugabe's party, the Zimbabwe African National Union-Patriotic 
Front, took power in 1980 after a protracted guerrilla war. The notes 
and interviews make clear that its military supporters, who stood to 
lose wealth and influence if Mugabe bowed out, were not prepared to 
relinquish their authority simply because voters checked Tsvangirai's 
name on the ballots.
    ``The small piece of paper cannot take the country,'' Solomon 
Mujuru, the former guerrilla commander who once headed Zimbabwe's 
military, told the party's ruling politburo on April 4, according to 
notes of the meeting and interviews with some of those who attended.
``Professional Killers''
    The plan's first phase unfolded the week after the high-level 
meeting, as Mugabe supporters began erecting 2,000 party compounds 
across the country that would serve as bases for the party militias.
    At first, the beatings with whips, striking with sticks, torture 
and other forms of intimidation appeared consistent with the country's 
past political violence. Little of it was fatal.
    That changed May 5 in the remote farming village of Chaona, located 
65 miles north of the capital, Harare. The village of dirt streets had 
voted for Tsvangirai in the election's first round after decades of 
supporting Mugabe.
    On the evening of May 5--three days after Mugabe's government 
finally released the official results of the March 29 election--200 
Mugabe supporters rampaged through its streets. By the time the militia 
finished, seven people were dead and the injured bore the hallmarks of 
a new kind of political violence.
    Women were stripped and beaten so viciously that whole sections of 
flesh fell away from their buttocks. Many had to lie facedown in 
hospital beds during weeks of recovery. Men's genitals became targets. 
The official postmortem report on Chaona opposition activist Aleck 
Chiriseri listed crushed genitals among the causes of death. Other men 
died the same way.
    At the funerals for Chiriseri and the others, opposition activists 
noted the gruesome condition of the corpses. Some in the crowds 
believed soldiers trained in torture were behind the killings, not the 
more improvisational ruling-party youth or liberation war veterans who 
traditionally served as Mugabe's enforcers.
    ``This is what alerted me that now we are dealing with professional 
killers,'' said Shepherd Mushonga, a top opposition leader for 
Mashonaland Central province, which includes Chaona.
    Mushonga, a lawyer whose unlined face makes him look much younger 
than his 48 years, won a seat in parliament in the March vote on the 
strength of a village-by-village organization that Tsvangirai's party 
had worked hard to assemble in rural Mashonaland.
    After Chaona, Mushonga turned that organization into a defense 
force for his own village, Kodzwa. Three dozen opposition activists, 
mostly men in their 20s and 30s, took shifts patrolling the village at 
night. The men armed themselves with sticks, shovels and axes small 
enough to slip into their pants pockets, Mushonga said.
    The same militias that attacked Chaona worked their way gradually 
south through the rural district of Chiweshe, hitting Jingamvura, Bobo 
and, in the predawn hours of May 28, Kodzwa, where about 200 families 
live between two rivers.
    When about 25 ruling-party militia members attempted to enter the 
village along its two dirt roads, Mushonga said, his patrols blew 
whistles, a prearranged signal for women, children and the elderly to 
flee south across one of the rivers to the relative safety of a 
neighboring village.
    Over the next few hours, the two rival groups moved through 
Kodzwa's dark streets. Shortly after dawn, Mushonga's 46-year-old 
brother, Leonard, and about 10 other opposition activists cornered five 
of the ruling-party militia members. One of the militia members was 
armed with a bayonet, another a traditional club known as a knobkerrie.
    In the scuffle, Leonard Mushonga and his group prevailed, beating 
the five intruders severely. But he said that this small, rare victory 
revealed evidence that elements of the army had been deployed against 
them.
    One of the ruling-party men, Leonard Mushonga said, carried a 
military identification badge. In a police report on the incident, 
which led to the arrest of 26 opposition activists, the soldier was 
identified as Zacks Kanhukamwe, 47, a member of the Zimbabwe National 
Army. A second man, Petros Nyguwa, 45, was listed as a sergeant in the 
army.
    He was also listed as a member of Mugabe's presidential guard.
Terror Brings Results
    The death toll mounted through May, and almost all of the 
fatalities were opposition activists. Tsvangirai's personal advance 
man, Tonderai Ndira, 32, was abducted and killed. Police in riot gear 
raided opposition headquarters in Harare, arresting hundreds of 
families that had taken refuge there.
    Even some of Mugabe's stalwarts grew uneasy, records of the 
meetings show.
    Vice President Joice Mujuru, wife of former guerrilla commander 
Solomon Mujuru and a woman whose ferocity during the guerrilla war of 
the 1970s earned her the nickname Spill Blood, warned the ruling 
party's politburo in a May 14 meeting that the violence might backfire. 
Notes from that and other meetings, as well as interviews with 
participants, make clear that she was overruled repeatedly by Chiwenga, 
the military head, and by former security chief Emerson Mnangagwa.
    Mnangagwa, 61, earned his nickname in the mid-1980s overseeing the 
so-called Gukurahundi, when a North Korea-trained army brigade 
slaughtered thousands of people in a southwestern region where Mugabe 
was unpopular. From then on, Mnangagwa was known as the Butcher of 
Matabeleland.
    The ruling party turned to Mnangagwa to manage Mugabe's runoff 
campaign after first-round results, delayed for five weeks, showed 
Tsvangirai winning but not with the majority needed to avoid a second 
round.
    The opposition, however, had won a clear parliamentary majority.
    In private briefings to Mugabe's politburo, Mnangagwa expressed 
growing confidence that the violence was doing its job, according to 
records of the meetings. After Joice Mujuru raised concerns about the 
brutality in the May 14 meeting, Mnangagwa said only, ``Next agenda 
item,'' according to written notes and a party official who witnessed 
the exchange.
    At a June 12 politburo meeting at party headquarters, Mnangagwa 
delivered another upbeat report.
    According to one participant, he told the group that growing 
numbers of opposition activists in Mashonaland Central, Matabeleland 
North and parts of Masvingo province had been coerced into publicly 
renouncing their ties with Tsvangirai. Such events were usually held in 
the middle of the night, and featured the burning of opposition party 
cards and other regalia.
    Talk within the ruling party began predicting a landslide victory 
in the runoff vote, less than three weeks away.
    Mugabe's demeanor also brightened, said some of those who attended 
the meeting. Before it began, he joked with both Mnangagwa and Joice 
Mujuru.
    It was the first time since the March vote, one party official 
recalled, that Mugabe laughed in public.
``Nothing to Go Back To''
    The opposition's resistance in Chiweshe gradually withered under 
intensifying attacks by ruling-party militias. After the stalemate in 
Kodzwa, the militias continued moving south in June, finally reaching 
Manomano in the region's southwestern corner.
    The opposition leader in Manomano was Gibbs Chironga, 44, who had 
won a seat in the local council as part of Tsvangirai's first-round 
landslide in the area. The Chirongas were shopkeepers with a busy store 
in Manomano. To defend that store, they kept a pair of shotguns on 
hand.
    On June 20, a week before the runoff election, Mugabe's militias 
arrived in Manomano with an arsenal that had grown increasingly 
advanced as the vote approached.
    Some carried AK-47 assault rifles, which are standard issue for 
Zimbabwe's army. For the attack on Manomano, witnesses counted six of 
the weapons.
    About 150 militia members, some carrying the rifles, circled the 
Chironga family home. Gibbs Chironga fired warning shots from his 
shotgun, relatives and other witnesses recalled. Yet the militiamen 
kept coming. They broke open the ceiling with a barrage of rocks, then 
used hammers to batter down the walls.
    When Gibbs Chironga emerged, a militia member shot him with an AK-
47, said Hilton Chironga, his 41-year-old brother, who was wounded by 
gunfire. Gibbs died soon after.
    His brother, sister and mother were beaten, then handcuffed and 
forced to drink a herbicide that burned their mouths and faces, 
relatives said.
    Both Hilton Chironga and his 76-year-old mother, Nelia Chironga, 
were taken to the hospital in Harare, barely able to eat or speak. The 
whereabouts of Gibbs Chironga's sister remain unknown. The family home 
was burned to the ground.
    ``There's nothing to go back to at home,'' Hilton Chironga said 
softly, a bandage covering the wounds on his face and a pair of feeding 
tubes snaking into his nostrils.
    ``Even if I go back, they'll finish me off. That is what they 
want,'' he said.
    Two days later, as Mugabe's militias intensified their attacks, 
Tsvangirai dropped out of the race.
    Groups of ruling-party youths took over a field on the western edge 
of downtown Harare where he was attempting to have a rally, and soon 
after, he announced that the government's campaign of violence had made 
it impossible for him to continue. Privately, opposition officials said 
the party organization had been so damaged that they had no hope of 
winning the runoff vote.
    On election day, Mugabe's militias drove voters to the polls and 
tracked through ballot serial numbers those who refused to vote or who 
cast ballots for Tsvangirai despite his boycott.
    The 84-year-old leader took the oath of office two days later, for 
a sixth time. He waved a Bible in the air and exchanged congratulatory 
handshakes with Chiwenga, whose reelection plan he had adopted more 
than two months before, and the rest of his military leaders.
    About the same time, a 29-year-old survivor of the first assault in 
Chaona, Patrick Mapondera, emerged from the hospital. His wife, who had 
also been badly beaten, was recovering from skin grafts to her 
buttocks. She could sit again.
    Mapondera had been the opposition chairman for Chaona and several 
surrounding villages. If and when the couple returns home, he said, he 
does not expect to take up his job again.
    ``They've destroyed everything,'' he said.

                                  <all>

</pre></body></html>
